<html>
<title> - FISCAL YEAR 2020 BUDGET: MEMBERS' DAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








 
                 FISCAL YEAR 2020 BUDGET: MEMBERS' DAY

=======================================================================

                            HEARING

                          before the

                  COMMITTEE ON THE BUDGET
                   HOUSE OF REPRESENTATIVES

                 ONE HUNDRED SIXTEENTH CONGRESS

                         FIRST SESSION

                          __________

       HEARING HELD IN WASHINGTON, D.C., MARCH 6, 2019

                         __________

                     Serial No. 116-4

                        __________
         
    Printed for the use of the Committee on the Budget
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


               Available on the Internet:
                   www.govinfo.gov
                                           
                        __________
                             
              U.S. GOVERNMENT PUBLISHING OFFICE            
                       
 35-568               WASHINGTON :2019
                       
                                           
                                           
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
                  
SETH MOULTON, Massachusetts,               STEVE WOMACK, Arkansas,
  Vice Chairman                               Ranking Member
  
HAKEEM S. JEFFRIES, New York                  ROB WOODALL, Georgia
BRIAN HIGGINS, New York                       BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania                Vice Ranking Member
RO KHANNA, California                         JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut                  BILL FLORES, Texas
LLOYD DOGGETT, Texas                          GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina                CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois                RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan                    CHIP ROY, Texas
JIMMY PANETTA, California                     DANIEL MEUSER, Pennsylvania
JOSEPH D. MORELLE, New York                   WILLIAM R. TIMMONS IV, South 
STEVEN HORSFORD, Nevada                            Carolina
ROBERT C. ``BOBBY'' SCOTT, Virginia          DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas                    KEVIN HERN, Oklahoma
BARBARA LEE, California                     TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee



                         Professional Staff

                    Ellen Balis, Staff Director
                    
                  Dan Keniry, Minority Staff Director
                  
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., March 6, 2019...................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     3
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     5
        Prepared statement of....................................     7
    Hon. Ed Case, a Representative in Congress from the state of 
      Hawaii.....................................................     9
        Prepared statement of....................................    11
    Hon. Tom Cole, a Representative in Congress from the state of 
      Oklahoma...................................................    13
        Article submitted for the record.........................    15
        Prepared statement of....................................    19
    Hon. Stacey E. Plaskett, a Representative in Congress from 
      the United States Virgin Islands-Delegate..................    26
        Prepared statement of....................................    28
    Hon. Pete Olson, a Representative in Congress from the state 
      of Texas...................................................    33
        Prepared statement of....................................    35
    Hon. Tom Malinowski, a Representative in Congress from the 
      state of New Jersey........................................    36
        Prepared statement of....................................    38
    Hon. Eddie Bernice Johnson, a Representative in Congress from 
      the state of Texas.........................................    40
        Prepared statement of....................................    42
    Hon. Steve Cohen, a Representative in Congress from the state 
      of Tennessee...............................................    49
        Prepared statement of....................................    51
    Hon. Alma S. Adams, a Representative in Congress from the 
      state of North Carolina....................................    54
        Prepared statement of....................................    55
    Hon. Carol D. Miller, a Representative in Congress from the 
      state of West Virginia.....................................    57
        Prepared statement of....................................    59
    Hon. Ben Ray Lujan, a Representative in Congress from the 
      state of New Mexico........................................    62
        Prepared statement of....................................    64
    Hon. Mary Gay Scanlon, a Representative in Congress from the 
      commonwealth of Pennsylvania...............................    73
        Prepared statement of....................................    75
    Hon. Larry Bucshon, a Representative in Congress from the 
      state of Indiana...........................................    79
        Prepared statement of....................................    81
    Hon. Michael C. Burgess, a Representative in Congress from 
      the state of Texas.........................................    84
        Prepared statement of....................................    87
    Hon. James P. McGovern, a Representative in Congress from the 
      commonwealth of Massachusetts..............................    95
        Prepared statement of....................................    98
    Hon. Debra A. Haaland, a Representative in Congress from the 
      state of New Mexico........................................   100
        Prepared statement of....................................   102
    Hon. Steny H. Hoyer, a Representative in Congress from the 
      state of Maryland..........................................   104
        Prepared statement of....................................   107
    Hon. Ben McAdams, a Representative in Congress from the state 
      of Utah....................................................   113
        Prepared statement of....................................   115
    Hon. Ben Cline, a Representative in Congress from the 
      commonwealth of Virginia...................................   118
        Prepared statement of....................................   119
    Hon. Chrissy Houlahan, a Representative in Congress from the 
      commonwealth of Pennsylvania...............................   121
        Prepared statement of....................................   123
    Hon. Andy Biggs, a Representative in Congress from the state 
      of Arizona.................................................   124
        Prepared statement of....................................   126
    Hon. Michael Cloud, a Representative in Congress from the 
      state of Texas.............................................   128
        Prepared statement of....................................   130
    Hon. Jodey C. Arrington, a Representative in Congress from 
      the state of Texas.........................................   135
        Prepared statement of....................................   137
Additional Statements submitted for the record:..................   142
    Hon. Sheila Jackson Lee, Member, Committee on the Budget.....   142
    Hon. Paul Mitchell, a Representative in Congress from the 
      state of Michigan, and Bradley Byrne, a Representative in 
      Congress from the state of Alabama.........................   147
    Hon. Jim Banks, a Representative in Congress from the state 
      of Indiana.................................................   154
    Hon. Brian K. Fitzpatrick, a Representative in Congress from 
      the commonwealth of Pennsylvania...........................   157
    Hon. H. Morgan Griffith, a Representative in Congress from 
      the commonwealth of Virginia...............................   160
    Hon. Gwen Moore, a Representative in Congress from the state 
      of Wisconsin...............................................   165
    Hon. Maxine Waters, a Representative in Congress from the 
      state of California........................................   167


                 FISCAL YEAR 2020 BUDGET: MEMBERS' DAY

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
Room 210, Cannon House Office Building, Hon. John Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Jackson Lee, Sires, 
Khanna; Womack, Flores, Johnson, Hern, Burchett, Meuser, and 
Roy.
    Apparently, we are scheduled to have votes during this 
hearing. So I ask unanimous consent that the chair be 
authorized to declare a recess at any time.
    Without objection, the request is agreed to.
    I would like to welcome everyone to the Budget Committee's 
Members' Day hearing. Members' Day is a longstanding tradition 
in the Budget Committee. Crafting the budget resolution is not 
an easy task, so I look forward to this annual hearing because 
it gives us the opportunity to hear the budget priorities of 
our colleagues.
    Good governing and responsible budgeting requires smart, 
often difficult choices. This process begins by evaluating the 
tradeoffs our choices require. How much should we invest in our 
national and economic security? How much funding is needed to 
ensure our citizens do not go hungry or homeless? How much is 
needed to provide a safe and secure retirement? How do we pay 
for the services and programs the American people want and 
need?
    Perhaps the biggest issue facing us this year is the 
remaining years of the austerity level spending caps required 
by the Budget Control Act of 2011. We face $126 billion in cuts 
to defense and non-defense discretionary spending next year 
alone. This is neither sustainable nor responsible. We need to 
raise the caps for both defense and non-defense spending, to 
ensure that every American family has the chance to build a 
better future.
    We have come together in a bipartisan manner in the past to 
provide necessary funding, and we can do it again. If we don't, 
investments that are vital to our economic and national 
security will face devastating cuts.
    In order to build a budget to serve our nation, our 
committee will get as much input as possible. We listen to our 
constituents, review the President's budget request, review 
views and estimates from authorizing committees, and hear from 
outside experts and advocates. At the end of this process, our 
goal is to construct a budget that sets priorities, while 
remaining fiscally responsible. This hearing is a vital piece 
of that process.
    I am pleased and honored to serve with my friend, Mr. 
Womack, the distinguished Ranking Member from Arkansas, and I 
look forward to working with him as we move forward. I would 
also like to thank members for taking time out of their busy 
schedules and appearing before the committee today.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Yarmuth. With that, I would like to yield to my 
friend, Ranking Member Mr. Womack, for his opening remarks.
    Mr. Womack. I thank the Chairman. I very much appreciate 
his leadership, and also the collegial way in which he conducts 
his business. And I am grateful for that. It is great to be 
here with him.
    I want to start by commending you, Mr. Chairman, and your 
staff for drawing 26 of our colleagues to participate in our 
Members' Day. That is 26 times more Member participation we 
experienced at this very hearing last year, when our friend, 
Mr. Kildee, was the only Member to testify before the 
committee. Although, I would note that at our Joint Select 
Committee hearing on budget and appropriations process reform 
25 testified. That was good news.
    As we undergo the process of crafting a budget resolution 
for this fiscal year, I am encouraged to see members from 
across the country with diverse perspectives and constituencies 
join this discussion. To all our colleagues, your voices are an 
important part of this conversation, and I thank you for being 
here today.
    As everyone in this room knows, the fiscal health of our 
nation is deteriorating. And unless we take significant action, 
this trend will soon begin to impact every aspect of American 
life, from the strength of our economy to the strength of our 
national security.
    According to the Congressional Budget Office, if we 
maintain the status quo, deficits will total $11.5 trillion, 
and the national debt will rise to nearly $34 trillion over the 
next decade. Over that same period, federal debt held by the 
public will surge from 78 percent to 93 percent of GDP, the 
highest debt levels since just after World War II, and more 
than twice the average level of the past 50 years.
    So what is driving our deficits? To me it is simple: out of 
control, unchecked spending.
    As we heard from CBO Director Hall earlier this year, 
mandatory spending programs, such as Medicare and Social 
Security, are the core drivers of our deficit and debt. Today 
mandatory spending accounts for 70 percent of total federal 
spending, and is expected to increase to 78 percent of total 
federal spending by 2029.
    What does that really mean for workers and families? It 
means that programs they are paying into today and counting on 
for the future may not be around when they need them most. It 
also means there will be fewer dollars for basic government 
operations, including defense, homeland security, and 
education. These are the programs that are being squeezed by 
mandatory spending.
    Despite these very real fiscal threats, over the last 
several months we have been hearing more and more about 
proposals that will exacerbate our problems, rather than solve 
them. To that end, I want to ask the other side again: What is 
the plan to reconcile the desire for astronomical spending 
increases with the need to address the ballooning national 
debt? Will you pass a budget? And if so, give us the timing.
    We have a moral obligation to get our fiscal house in 
order, to make sure that our children and grandchildren aren't 
saddled in the future with spending decisions Washington makes 
today. That requires tough choices. That requires asking 
ourselves, can we afford it? And should our constituents be 
forced to pay the price?
    I look forward to the hearing and the Q&A that will ensue 
following each Member's presentation.
    [The prepared statement of Steve Womack follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
   
    
    Chairman Yarmuth. I thank the Ranking Member.
    As a reminder, members appearing before the committee today 
will have five minutes to give their oral testimony, and their 
written statements will be made part of the formal hearing 
record.
    Additionally, as the Ranking Member referenced, members of 
the committee will be permitted to question witnesses following 
their statements. But out of consideration of our colleagues' 
time, I would ask that you please keep your comments brief, as 
I think we actually now have 27 witnesses. So, obviously, this 
hearing could go on for days and days and days, if we had full 
committee--questioning by all the committee.
    So, with that, it is an honor to recognize Mr. Case, from 
Hawaii, for his testimony.
    You are recognized for 5 minutes.

 STATEMENT OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Thank you very much, Chairman Yarmuth, Ranking 
Member Womack, members of the committee. I am Ed Case, 
representing Hawaii 1, the beautiful city of Honolulu. And as 
one member who served previously and--including service on this 
committee, I very much appreciate your responsibilities and 
your hard work.
    I am here today in support of a fiscally responsible budget 
for fiscal year 2020, a budget that would focus our core 
functions and discretionary priorities within our means. It 
would require a whole-budget, long-term approach with 
bipartisan solutions to one of the most challenging issues 
facing our country.
    Our national debt, as we all know, has now surpassed $22 
trillion, a huge number. But what is most revealing to me is 
that, although $22 trillion is a large number, what is more 
important to me is that when I left Congress in January 2007 it 
was $9 trillion--$9 trillion to $22 trillion in half a 
generation, an unprecedented amount.
    And, as we all know, the interest on our debt is now the 
fastest growing part of our budget. Next year we will spend 
more money on interest payments on the debt than all federal 
funding. And by 2025 it may well increase--exceed our defense 
budget.
    This not only represents great risk to economic, social, 
and defense stability, but is a stark indicator of fiscal 
unsustainability.
    Some say that budgets and deficits and debts don't matter, 
and we can and should spend more without also raising revenue. 
This feed-the-beast approach is the mirror image of the starve-
the-beast approach that we have also seen. Both are wrong, as a 
matter of fiscal, economic, budgetary, and social policy. We do 
need a budget that is not just an aspirational exercise, but 
instead a document that comprehensively addresses our nation's 
needs and expenses.
    As you both alluded to in your opening statements, we have 
urgent challenges, from climate change to health care and 
beyond, and we need a full and difficult debate on how best to 
address them in a fiscally responsible way.
    You both also referenced the fact that if we continue on 
this currently fiscally unsustainable path, we will in fact 
reduce our ability to deal not only with normal course needs, 
but with future emergencies or recessions. This is borne out in 
a number of examples that we have discussed repeatedly over the 
years, but are becoming much more acute, including the draining 
of the Social Security Trust Fund, the Highway Trust Fund, 
placing greater pressure on our overall budget, and deferring 
these issues only compounds them.
    We need to return also to regular order. We need to pass 
both the budget and stand-alone appropriations legislation on 
time, every time. This lends both to internal stability and 
external predictability to the process.
    As co-chair of the Blue Dog Caucus's Fiscal Responsibility 
and Government Reform Task Force, I encourage this committee to 
set meaningful goals to reduce the budget, and put a plan 
forward to achieve these actions on a bipartisan basis, where 
we can. Because the longer we wait, the worse these options 
become.
    Let me talk briefly about a huge priority that I view out 
there right now, and that is the priorities of our challenges 
in the Indo-Pacific Region, my own backyard. Hawaii is closer 
to Asia than it is to Washington, D.C., much of Asia, and we 
spend a lot of time dealing with the Indo-Pacific Region, a 
region that has incredible economic contributions, economic 
promise, social promise and challenge, and an area where our 
interests are rooted deeply in the future, an area which will 
determine our country's future and our world's future, the 
Indo-Pacific Region.
    It inherently plays a critical role in our foreign policy 
priorities, including combating climate change, countering 
violent extremism, and promoting democracy and the rule of law. 
And our investment and commitment on these issues in the region 
need to reflect the overall strategic importance of the Indo-
Pacific, whether we are talking about defense or whether we are 
talking about soft power exercises, supporting our allies, 
supporting our partners, and really trying to enforce an 
international, rules-based order.
    When we look in this area, we certainly need, I believe, to 
prioritize our response to China's growing role in the world. 
And this cuts across many, many different aspects. As you go 
through your budget process, then, I would ask you not only to 
try to work towards a fiscally responsible budget, not only try 
to work towards a budget that is delivered on time, on budget, 
and that the Appropriations Committee and other agencies of 
Congress, as well as the private sector, can depend on, but 
also a budget that focuses on the priorities out there in the 
rest of our world, to include the Indo-Pacific Region.
    I thank you very much for your time, and appreciate the 
opportunity to share these thoughts, and stand ready, willing, 
and able to work with you on a bipartisan basis to solve our 
budget problems. Mahalo.
    [The prepared statement of Ed Case follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. Mahalo to you. Thank you very much for 
your testimony.
    Do any members on the committee wish to ask questions of 
Mr. Case?
    Mr. Burchett is recognized.
    Mr. Burchett. You are from Hawaii?
    Mr. Case. Yes, I am.
    Mr. Burchett. Since I missed part of that I was wondering 
maybe if we could take a CODEL to Hawaii maybe to check into 
this a little further, Mr. Chairman.
    Mr. Case. Well, I think, you know, we can certainly educate 
you on the budget from the perspective of the Indo-Pacific 
Region if you want to put it that way. I think that is a very 
worthwhile exercise by Congress. I invite you.
    Mr. Burchett. I will rephrase my question, Mr. Chairman.
    [Laughter.]
    Mr. Burchett. Thank you.
    Chairman Yarmuth. Thank you.
    Does anyone else have a question of the witness?
    [No response.]
    Chairman Yarmuth. Thank you, Mr. Case.
    Mr. Case. Thank you.
    Chairman Yarmuth. I now recognize Mr. Cole of Oklahoma, a 
former member of this committee, a distinguished member.
    Mr. Cole. Thank you.
    Chairman Yarmuth. Welcome, Mr. Cole.

 STATEMENT OF HON. TOM COLE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF OKLAHOMA

    Mr. Cole. Thank you very much, Mr. Chairman. And I tell 
you, if I had known you were going to have such splendid digs, 
I might have tried to stay on.
    [Laughter.]
    Mr. Cole. So it is a wonderful hearing room.
    Mr. Chairman, Mr. Ranking Member, as a former member of the 
House Budget Committee, I have consistently supported 
responsible and balanced legislation to get our long-term 
fiscal house in order, and ultimately pay down the nation's 
daunting level of debt.
    However, to make real progress toward tackling our nation's 
debt problem, we must enact reforms to save and sustain 
mandatory programs like Medicare, Medicaid, and Social 
Security.
    There is no question that our country's major mandatory 
programs are a significant driver of our debt. In fact, the CBO 
estimated last April that in 2018 the federal government would 
spend 4 percent more than the year before to fulfill benefits 
promised to Americans enrolled in these programs. And over the 
coming decade, mandatory spending is projected to continue 
growing at an average annual rate of 5.5 percent, reaching $7 
trillion in 2028.
    Social Security, Medicare, and net interest account for 
more than two-thirds of that increase. According to the Boards 
of Trustees for Social Security and Medicare, both are due to 
become insolvent within the foreseeable future, if no changes 
are made.
    In response to this grim reality, I have again introduced 
legislation to save Social Security. H.R. 289 would create a 
bipartisan and bicameral commission tasked with recommending 
reforms to ensure Social Security is solvent for at least 75 
years. Certainly, the only way to avoid painful cuts to 
beneficiaries later is to make small changes to safety net 
programs today. The longer we avoid this challenge, the more 
expensive and painful the solutions will become, and the deeper 
the debt left to our children and grandchildren.
    As a Ranking Republican of Appropriations Subcommittee on 
Labor, Health, and Human Services, Education, and Related 
Agencies, I believe we must continue to prioritize robust 
funding for disease research and prevention. In fiscal year 
2019 Congress increased the budget for NIH by $2 billion, 
building upon 3 previous increases of $2 to $3 billion each 
fiscal year.
    Congress has also maintained strong funding for the Center 
for Disease Control disease prevention programs, working to 
prevent chronic disease and address global health issues such 
as malaria and the AIDS epidemic. These expenditures actually 
save money and lives. As I have often said, you are much more 
likely to die in a pandemic than a terrorist attack. So while 
we want to look for savings, this is an area I think we need to 
continue to invest.
    And in writing the budget for fiscal year 2020, I urge 
members of this committee to prioritize continued sustained 
funding for these important agencies and programs, recognizing 
that the funding for disease research and prevention is an 
investment that generates tremendous benefits for society.
    And in that regard, I would like to submit for the record 
an article by Jed Manocherian on the benefits of this continued 
investment.
    Chairman Yarmuth. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
    
    Mr. Cole. Thank you, Mr. Chairman.
    Unlike other constituencies, the federal government has a 
unique government-to-government relationship with Native 
American tribal governments that is enshrined in the U.S. 
Constitution, upheld by the U.S. Supreme Court case law, and 
reinforced by numerous federal statutes, treaties, and 
government-to-government agreements.
    Advanced appropriations for the Indian Health Service would 
ensure that the trust responsibility is not abrogated by 
congressional indecision over the annual appropriations 
process. The most recent government shutdown caused significant 
jeopardy to the health and safety of Native Americans, due to 
the lack of funding for the IHS, BIA law enforcement, and other 
crucial BIA services.
    With respect to the IHS, the shutdown destabilized Native 
health delivery and access to health care providers, damaging 
tribal government operations and impacting families, children, 
and individuals.
    Nearly every year since 2003, the budget resolution has 
limited how much and for what purpose advanced appropriations 
can be made. Indian Health Service and BIA must be included in 
future budget resolutions to ensure these agencies, tribal 
governments, and urban Indian health care providers can 
continue to improve the quality of and expand access to health 
and other services.
    Finally, as the senior member of the House Appropriations 
Subcommittee on Defense, I believe we must support a robust 
military force postured to meet the challenges and threats of 
the 21st century. Indeed, Congress has no greater 
responsibility than to provide for our military, with the 
training and resources it needs to meet growing security 
challenges around the world.
    However, in the face of unprecedented fiscal challenges, a 
broader discussion and debate must take place that includes not 
only the cost of weapons systems, but the cost to sustain them 
over their life cycle. I urge you to consider these costs in 
your deliberations.
    Mr. Chairman, this concludes my testimony. I thank you for 
your time and this forum in which I was able to present my 
views.
    [The prepared statement of Tom Cole follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. Thank you, Mr. Cole. And I believe the 
Ranking Member has a question of the witness.
    Mr. Womack. So Representative Case, in his testimony this 
morning, I think, did a pretty good job of explaining the two 
choices that we have: feed the beast or starve the beast, or 
some sweet spot in between.
    So my question of you, Mr. Cole, who happened to chair and 
now rank on one of the--arguably, one of the real important 
subcommittees--not that there--anything is less important than 
others, but Labor H is a very important subcommittee, it deals 
with a lot of things important to the American public.
    And sometimes we get into big shouting matches and fights 
over spending, as a general term. But in the case of your 
subcommittee, there are--there is spending within that 
subcommittee, namely in NIH, that can actually bend the cost 
curve in the out-years on one of the key factors facing our 
budget, and that is health care expense.
    So I want to give you just a moment to articulate just what 
happens when we are able to do really good research--whether 
you want to call it a moon shot or not--on something like an 
Alzheimer's, or some of these other great medical issues facing 
our country, and the impact they have, say, a generation or two 
from now.
    Mr. Cole. That is a great question, as you know. You were 
Vice Chairman of that committee, and so you are--you know these 
topics better than most.
    And let me just take the example you mentioned, of 
Alzheimer's. Currently, the federal government spends about 
$257 billion a year, mostly through Medicaid, to look after 
Alzheimer's patients. And that cost is projected to go to $1.1 
trillion by 2050. So getting ahead of this, if you can just 
delay the onset--not just find a cure, just delay the onset, 
because this hits so many people late in life--you actually 
lower the cost by 42 percent, if you could delay it for five 
years. If you can cure it, obviously, that is the right thing 
to do, and humanitarian reasons. But it is the smart thing to 
do.
    So on that committee in the last four years we have made 
that a priority, and we have literally quadrupled Alzheimer's 
research funding, going from $500 million to about $2.4 
billion. And that has been done in a very bipartisan manner. 
Again, these are investments that Republicans and Democrats 
alike know will save them money.
    You know, how much better--I am old enough, sadly, to have 
lived in a world where polio was pretty common. Now it is--
there is fewer than 20 cases a year in the entire globe. That 
is a direct result of biomedical research. How many lives have 
been improved? How much money has been saved? You could go on 
and on. And we happen to be at the cusp right now of--because 
of the mapping of the human genome, where we are on the verge 
of extraordinary progress.
    Now, I will tell you, in some cases, that is going to 
complicate your job, because we are going to live a lot longer. 
We already are. I mean the largest generation in American 
history is also going to live longer than any previous 
generation, and so that has created problems for Medicare and 
Social Security. They just simply weren't anticipated.
    That is why I would also urge you, while we do this 
research, to look at these fundamental safety programs. And I 
would remind you of the last time we did this, in 1983, Ronald 
Reagan was President, Tip O'Neill was our Speaker. They worked 
together. The proposal we have is actually very similar to the 
one that they enacted. And I think you would probably get, you 
know, a minor reduction in benefits and additional income into 
these systems, as well. We are going to have to look at both 
sides of these.
    But again, disease research holds, honestly, the answer to 
many, many of our challenges in Medicare and Medicaid, long-
term.
    Chairman Yarmuth. I thank the gentleman. It is now an honor 
to recognize Ms.--oh, I am sorry, I am sorry.
    Mr. Hern?
    Mr. Hern. Yes. First, I want to thank my colleague from 
Oklahoma for being here today and testifying before us. I could 
not agree more that we have a major spending problem in this 
country.
    You know, the Associated Press, ironically, just yesterday 
reported that from October through January government revenues 
totaling $1.11 trillion--down 1.7 percent from the same period 
a year ago--but government spending was $1.15 trillion, up 8.8 
percent from the same period a year ago.
    You know, as a lifelong business person, there is really 
only three things you can do to correct a financial problem. 
You either grow revenues, cut expenses, or some combination 
thereof. Under these current CBO projections, the federal 
government will collect the extraordinary sum of $46 trillion 
over the next 10 years. No country in the history of this world 
has ever collected more.
    And I guess my question is sort of a two-part. One is does 
this surprise you, that spending is up 8.8 percent, year over 
year?
    Mr. Cole. It disappoints me. It doesn't surprise me. And, 
you know, again, I go back and where is it, you know, going up?
    If you actually look at fiscal year discretionary spending 
in 2010 and define defense and OCO spending, overseas 
contingency--we are actually spending less today than we were 
nine years ago on defense. And on non-defense, we are actually 
spending--and this is after the budget agreements of last 
year--less than we were in 2010.
    The difference is all mandatory programs and interest on 
the national debt. In 2010 the mandatory programs were, round 
numbers, about $1.9 trillion. This year they will be about $2.6 
trillion. Then throw in the deficit, the interest on the debt, 
which back then was running around $190 billion. This year it 
will be $300-plus. I think $312 is the latest number I saw.
    So I think, you know, we have a lot of arguments about 
spending through the appropriations process. The real elephant 
in the room is the thing that nobody wants to talk about: What 
are you going to do to either sustain or, you know, reform 
Social Security, Medicare, and Medicaid? Those three programs 
are over 60 percent of all federal spending. So the idea we can 
balance the budget without going back and looking at things 
that are politically popular but fiscally unsustainable, I 
think is just a myth. And the longer we put it off, the worse 
the problem that you outlined is going to be.
    Mr. Hern. Mr. Chairman, I agree with my colleague. And I 
think we all agree--and I appreciate my colleague from Hawaii 
and his comments, as well--it is our responsibility, as 
representatives of the people who fund our great government, 
that we have to be greater stewards of the taxpayer dollars. 
And I would appreciate the opportunity.
    Chairman Yarmuth. I thank the gentleman and now recognize 
Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    Mr. Cole, I will give you a little background. My sister-
in-law has just recently been diagnosed with breast cancer, and 
she is going through all that.
    And I would like you to--you research all the current 
things going on. I am wondering. How do we maybe not 
streamline, but how do we ensure that there is collaboration 
between these different groups that we are funding? Because it 
seems to me a lot of people are going down the same path that 
somebody else went down.
    Is there any way to ensure with dollars that we provide 
these groups that are doing research--maybe these hospitals or 
universities--that they are, in fact, collaborating and they 
are not just reinventing the wheel, and that we can find--it 
just seems to me there is a lot of waste. Maybe not waste, just 
duplication.
    Mr. Cole. Well, I think that is a great question. We 
actually worked pretty closely with the NIH on this when I was 
Chairman, and I know our new Chairman, the gentlelady from 
Connecticut, Rosa DeLauro, will be taking that subcommittee out 
to the NIH.
    We have hearings with them every year. We really do pay 
attention to this for exactly the reason that you mention. 
There is the risk of duplication.
    Now, again, the research that they put out is all peer-
reviewed. As Congress, we don't pick this or that research 
project. So we have kept the process bipartisan--it is very 
clean of steering money to our favorite institutions, or what 
have you. So I think both sides should be commended in that.
    But we also, you know, are pretty clear with the NIH 
directors and the people at the various institutes, look, we 
have to see results for investments of this size. You have to 
use these dollars wisely.
    And again, I would tell you--you mentioned cancer. What an 
awful thing. Sixty-five percent of the people that get cancer 
today--and 1.6 million Americans get it every year--are going 
to be cancer survivors. You want to compare the numbers 30 
years ago to that, or 20 years ago?
    So I am not going to tell you we haven't made mistakes, or 
gone down blind alleys. Frankly, blind alleys are part of 
research sometimes. But the reality is this is research that 
has made life better. And while disease--or, you know, research 
is expensive, just try disease. That is really expensive, the 
cost associated with that for any American that has the 
misfortune to have that and, frankly, the role the government 
rightly plays in trying to help them do that.
    So again, I just tend to think, if you look dollar for 
dollar, these investments have paid off for the American 
people. But we will always be trying to make it more efficient 
and protect that very precious taxpayer dollar.
    Chairman Yarmuth. I thank the gentleman. Now it is my honor 
to recognize Ms. Plaskett of the Virgin Islands for 5 minutes.

 STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN CONGRESS 
            FROM THE TERRITORY OF THE VIRGIN ISLANDS

    Ms. Plaskett. Thank you, Chairman Yarmuth and Ranking 
Member Womack, members of the committee. Good morning, and 
thanks for the opportunity to present a brief statement of my 
views about what the budget should look like for the upcoming 
fiscal year.
    Budgets are moral documents. They are statements about what 
we want our future to look like, and where we are going to 
spend our resources. It sets the stage for whether this country 
will continue to lead.
    I will start by saying that, over the long term, this will 
require cancellation of sequestration, rethinking current tax 
policy, modernizing our military, and investing in education, 
health care, infrastructure, and jobs.
    I want to use the rest of my time to address specific areas 
of need, particularly in the U.S. Virgin Islands, and how your 
budget impacts those--the territories.
    Congress does not always acknowledge the contribution of 
the territories to our nation. But the geographic importance of 
the territories and our own brain drain shows the 
contributions, along with our high participation rate in the 
United States armed forces.
    Each of the territories has had at least one major disaster 
declared by the President in the last two years. Of course, we 
are all very familiar with the impact of Hurricanes Irma and 
Maria in the Virgin Islands and Puerto Rico. Recovery is still 
ongoing, and I applaud the excellent work that has been done. 
However, I would be remiss if I did acknowledge--did not 
acknowledge how much work remains in order to fulfill the 
promise of full recovery and, indeed, begin rebuilding.
    Many of the challenges are the result of factors beyond the 
control of government, such as geographic isolation. But some 
challenges we face are exacerbated by federal policies, which 
are within our power in Congress to change.
    With an economy that primarily relies on tourism now, the 
Virgin Islands depends heavily on infrastructure. Given the 
catastrophic level of damage suffered, the recovery of our 
islands will hinge on the level of support from Congress to 
rebuild and maintain infrastructure, roads, and particularly 
our ports. The budget must call for a significant investment in 
infrastructure, with a piece of it geared toward assistance to 
rural and traditionally under-served areas, including the U.S. 
territories.
    For example, the territorial highway program has been 
unfairly singled out in recent years for funding cuts, while 
states and the District of Columbia have received significant 
increases. I have continued to urge my colleagues to correct 
this inequity for years.
    Along with transportation and other infrastructure, a great 
many of the schools in our country are in need--are at the end 
of their life cycle. School buildings, classrooms, equipment, 
among other things, are crucial to our children's funding. A 
lack of significant infrastructure in school infrastructure in 
the Virgin Islands was an enabling factor in the resulting loss 
of a large percentage of schools after our storms in the Virgin 
Islands.
    As of now, we still have many students who are living in 
temporary structures. And it would seem more fiscally 
responsible to put the money into the schools now, so that when 
ensuing and, God forbid, additional natural disasters occur, 
those schools are resilient and can continue to stand.
    Another area of support in the budget makes fiscal and 
long-term responsibility is health care, specifically regarding 
Medicaid. The arbitrarily high local match required of the 
territories under Medicaid has imposed severe and unstable 
financial demands on the territory.
    In addition, with overall federal Medicaid funding to the 
states and D.C. is open-ended, the Medicaid programs in the 
territories are subject to annual federal funding caps. Once 
the cap is reached, the territory must assume the full cost. Up 
to 30 percent of the population could lose access to Medicaid 
on September 3rd when the Affordable Care Act allotment 
expires, and access to Medicaid would be lost by the 
territories. Congress must act to prevent this potential 
calamity before September 30th.
    That, along with CMS reimbursement rates from the 1980s, 
the Virgin Islands' lack of being able to be part of the DISH, 
the disproportionate share for hospitals, means that, for the 
hospitals in the territories, which were also destroyed in the 
hurricanes, we--they have a large portion of uncompensated care 
for those individuals who do not have Medicaid or health 
insurance in the territories.
    The Islands and territories also face unique security 
threats, so funding for Coast Guard funding, Homeland Security 
entities, et cetera, are important.
    I see that I am running out of time, but there are areas 
related to federal tax policy playing a crucial role, as well 
as increased funding to NOAA. Increasing funding for NOAA's 
Endangered Species Act, marine protection, essential fish 
habitation, consultations would--are necessary to address the 
backlog and permitting process, which negates us having an 
ability to have developments move forward in the territories.
    I will submit a full written testimony, which has much 
more, particularly in the area of tax cuts, and the unintended 
consequences to the territories due to some of the tax laws. 
Thank you.
    [The prepared statement of Stacey E. Plaskett follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentlelady for her testimony. 
Does anyone have a question of the witness?
    Thank you very much.
    I now recognize Mr. Olson of Texas for 5 minutes.

STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Olson. Thank you, Chairman Yarmuth. Thank you, Ranking 
Republican leader Womack, and every member of this important 
committee for allowing me to share my thoughts about the 
budget.
    I come from the most diverse district in America. If the 
census comes through in 2020 as expected, election in 2022 in 
my home district of Texas 22 will be 25 percent, 25 percent, 25 
percent, 25 percent divided equally between Hispanic-Americans, 
Asian-Americans, African-Americans, and Caucasian-Americans. 
Everyone in this--these groups have concerns, and some have 
fears about Medicare for all.
    We all know the drivers of our uncontrolled national debt. 
It is three programs that we have to pay for. We made a 
promise. Social Security for retirees, Medicaid for less 
fortunate, and Medicare for senior citizens for their health. 
Medicare is in the worst shape of all those, financially.
    Medicare for all destroys Medicare as we know it. It 
ensures a rapid bankruptcy, meaning Medicare for none. Medicare 
had a study. They put the target, the number, at $32 trillion 
over 10 years for Medicare for all. New York Times, not the 
most conservative paper out there, has said, ``Medicare for all 
will have increased possibly higher taxes for people on 
Medicaid, new taxes for people who pay for the insurance out of 
their pocket, Tricare for our veterans, gone. And private 
insurance through your employers, gone,'' meaning the promise 
if you like your health care, you can keep it is being broken.
    Leader of Medicare for all in the Senate, Senator Sanders, 
admits that his proposal will cost $1.38 trillion per year. 
That is $13.8 trillion over the 10-year budget window.
    Our seniors know that expanding membership to Medicare, 
their exclusive program for their last years of lives, will 
lead to lower quality of care and less access to care. You 
can't put bands of youngsters into Medicare without diminishing 
seniors' care. The math just doesn't add up.
    In addition to risking Medicare for seniors, all people 
back home have asked me, the whole time I have been in 
Congress, over 10 years now, the same question: ``If my family 
has to have a balanced budget, if my business has to have a 
balanced budget, if my local city government has to have a 
balanced budget, if my state government has to have a balanced 
budget, why in the heck does D.C. not have to have a balanced 
budget?''
    And balanced budgets are hard. My old boss, Field Graham, 
had a great quote about balanced budgets. He said, ``Balancing 
a budget is like going to heaven. Everybody wants to do it, but 
nobody wants to do what it takes to get there.''
    When my party had control of this committee, we balanced 
our budget within the budget window. Some 10 years, some as low 
as seven years. Those were tough, tough votes. Tough, tough 
choices. I ask this committee to please make your goal to 
balance our budget within the 10-year window. You don't need to 
have this committee balance the budget after the world ends in 
12 years or after Jesus comes back. Make the tough choices now. 
Show the American people we get it.
    I am happy to take some questions.
    [The prepared statement of Pete Olson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentleman. Does anyone have a 
question for the witness?
    Thank you very much, Mr. Olson.
    Mr. Olson. Thank you.
    Chairman Yarmuth. Just so you know the order now, it is Mr. 
Malinowski, Ms. Johnson, Mr. Cohen, the next three witnesses.
    Thank you both, Ms. Plaskett and Mr. Olson, and I now 
recognize the gentleman from New Jersey, Mr. Malinowski, for 5 
minutes.

STATEMENT OF HON. TOM MALINOWSKI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Malinowski. Thank you, Chairman Yarmuth. Thank you, 
members of the committee. I want to raise a small number of 
issues that I think are particularly important to the 7th 
District of New Jersey, and I think important to the country, 
as a whole.
    And the first is the need for a budget that invests in 
transportation infrastructure. In particular, public 
transportation. All of us, I think, know this, and certainly 
those of us who have traveled to other countries know this, 
that America's infrastructure, once the envy of the world, is 
losing its battle against time, growth, weather, and wear.
    And no state suffers more from our under-investment in 
public infrastructure than New Jersey, where twice as many 
people use public transportation as the national average. To 
get to and from New York, 200,000 of us a day still depend on 
just two rail tracks across the Portal Bridge and through the 
Hudson River Tunnel, two structures that were a marvel when 
they were built in 1910, but are crumbling today.
    If we fail to repair this vital transportation corridor in 
time, we will be dealing a crippling blow to the economy of our 
region and our country. Even a partial shutdown of these 
tunnels would disrupt not just passenger rail, but car and 
truck traffic up and down the east coast, making commutes 
virtually impossible for tens of thousands of people, 
diminishing property values, and driving away businesses in one 
of the most economically vital areas of our country.
    And so I ask that the Budget Committee support significant 
investments in our nation's transportation infrastructure, 
particularly the all-important Gateway Project.
    I also ask for full funding for the U.S. Army Corps of 
Engineers Flood-Risk Management Program. This is especially 
important to residents in my district. For years, homeowners 
near the Rahway River Basin and Green Brook Sub Basin in my 
district have lived under the constant threat that--of flooding 
that devastates businesses and homes whenever there are heavy 
rains. The last major flood was in 2011, when Hurricane Irene 
ravaged the east coast. The town of Cranford in my district 
lost 1,600 homes to significant damage. Funding would enable 
urgently-needed flood-control work to be done in these areas 
and others in similar situations.
    In January, our mayors presented a proposed solution to the 
Army Corps of Engineers and are now pushing for a feasibility 
study to be completed. This will get us one step closer to 
authorizing construction on the Rahway River Basin, so that we 
never again have to be pulling people out of second-story 
windows in the communities that I represent because of flooding 
that can be predicted and should be prevented.
    Finally, Mr. Chairman, there is a profound debate that we 
are having in this very body right now about the words we speak 
and the example that we set when it comes to bigotry and 
intolerance. But it is not just what we say as leaders that 
matters; it is what we do as legislators. Anti-Semitic 
incidents surged by 57 percent in 2017, and overall hate crimes 
rose by 17 percent. In my district, white nationalist and anti-
Semitic propaganda has appeared from community bulletin boards 
to graffiti in public schools. People whose minds have been 
poisoned by this extremism have threatened and committed brazen 
acts of terror, including the deadliest attack on Jewish 
Americans in our country's history.
    We have invested enormous resources as a country to prevent 
foreign terrorists from conducting attacks on our soil, and we 
have been remarkably successful. We have devoted vastly fewer 
resources to preventing attacks by domestic extremists, even 
though they have claimed roughly as many lives as groups like 
al-Qaeda and ISIS within the United States since 9/11. The 
Trump Administration has actually proposed to cut funds for 
countering violent extremism at the Department of Homeland 
Security.
    So let's make sure that our budgets for the Justice 
Department, including the FBI and for DHS, are adequate to 
meeting the threat that our citizens actually face from both 
foreign and domestic extremist groups, and that there is an 
expectation of greater parity when it comes to which are 
prioritized.
    I look forward to working with you to shape our response to 
this and all the other challenges I mentioned. Thank you.
    [The prepared statement of Tom Malinowski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. I thank the gentleman for his testimony. 
Does anyone have a question of the witness?
    Thank you very much. I am now pleased to recognize the 
chairwoman of the Science Committee, Ms. Bernice Johnson of 
Texas, for 5 minutes.

 STATEMENT OF HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Johnson. Thank you very much, Mr. Chairman. And good 
morning to all.
    Since submission of the President's fiscal year 2020 budget 
request has been delayed, it is obviously not possible to 
comment on its impact on the nation's research and innovation 
enterprise. However, if the Trump Administration's past budget 
submissions are any guide--and I fear that they are--this 
year's request will continue the trend of devaluing the 
important role that federal investments make in R&D and play in 
advancing our economy, preparing our workforce for the jobs of 
the 21st century, and maintaining our national security.
    In the President's fiscal year 2019 budget request, we 
witnessed a troubling disregard for science, as massive cuts 
were made to vital research and development project funding. 
Unfortunately, we again expect to see more proposed cuts in 
crucial funding areas like R&D, innovation, education, and 
technology in the fiscal year 2020 request.
    As a result, my highest priority request to the Budget 
Committee as it works to craft the budget resolution, is that 
we reject further cuts to civilian R&D and science and 
technology programs. And, indeed, I would hope that you would 
increase our federal R&D investments in these programs. The 
federal investments are vital to our scientific enterprise, and 
further cutbacks would put our nation's global competitiveness 
in jeopardy. We need to invest in our research agencies: NASA, 
NOAA, NSF, NIST, DOE, EPA, and others that enhance America's 
economic strength, address our national priorities, advance 
knowledge, and inspire our youth.
    The Science, Space, and Technology Committee's budgetary 
priorities are laid out in more detail in the views and 
estimates that we will be submitting to the Budget Committee 
later this week. In view of the time constraints, I will just 
mention a few of them here today.
    First, the Department of Energy funds a wide range of 
research, development, demonstration, and commercial 
application activities. Given the President's repeated promises 
to revitalize American infrastructure, and the need to 
transition to a clean energy economy, we believe strong 
investments across DOE's energy RDD&CA activities should be a 
top priority.
    Second, though a few will point to the successes of the 
Environmental Protection Agency in protecting public health and 
the environment over the past 40 years as a reason to stop 
pushing for stricter limits on pollution, it is important to 
note that these protections must be sustained with robust 
funding for the Agency. Maintaining clean air and water, and 
protecting our most vulnerable populations from environmental 
contaminants is a continuing endeavor. We must be investing 
more, and must be investing more in EPA, not less.
    With respect to climate change, though our understanding of 
the physical drivers of climate change has improved, there is a 
clear need for continued sustained funding for research at 
agencies such as NOAA and NASA that--which will help inform 
robust solutions to one of our nation's greatest challenges.
    The National Aeronautics and Space Administration, or NASA, 
has long been recognized as the world leader in aeronautics and 
space research and exploration. We support robust funding that 
will allow NASA to maintain a balanced and healthy portfolio in 
programs in aeronautics, Earth and space science, technology 
development, and human spaceflight and exploration, as well as 
allowing investments in the infrastructure that will be 
required if NASA is to carry out the tasks our nation has given 
it.
    We encourage the Budget Committee to maintain robust 
funding for NOAA across all line offices, especially for 
environmental data collection and scientific research needs to 
ensure the agency can continue to meet its critical mission.
    It is also imperative that funding for the next generation 
of NOAA's weather satellites be maintained to ensure that those 
satellite programs remain on track for successful development 
and launch.
    The National Science Foundation is the only federal agency 
to support basic research across all fields of science and 
engineering. At a time of increasing global competition and 
national urgency in critical research areas like quantum 
science, artificial intelligence, the future of work, and 
climate change, NSF should be funded at levels that allow it to 
support the cutting-edge research that makes the U.S. the 
global leader in innovation.
    NIST is one of the most important but underappreciated 
agencies in our government. The work NIST does with the 
relatively modest budget yields incalculable benefits to the 
competitiveness of U.S. industry across all sectors, while also 
protecting the security, privacy, safety, and well-being of all 
Americans. NIST is worthy----
    Chairman Yarmuth. The witness could wrap up. Your time has 
expired. Again, if you could wrap up, that would be 
appreciated.
    Ms. Johnson. Oh, I thank you, Mr. Chairman.
    Chairman Yarmuth. Thank you.
    Ms. Johnson. I simply ask for your sincere investigation 
and support for these areas. Thank you very much.
    [The prepared statement of Eddie Bernice Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. I thank the witness very much. Any 
questions of Ms. Johnson?
    Mr. Flores. Thank you, Mr. Chairman. I don't have a 
question, but I do want to make sure that we don't leave the 
wrong impression in the hearing record regarding the 
gentlelady's comments regarding research funding.
    The President's budget has historically requested decreases 
in research funding. That said, Congress has actually increased 
funding in important basic research over the course of the last 
four years. So I just want to make sure the record reflects 
that Congress, on a bipartisan basis, has placed a priority on 
basic research funding.
    Thank you. I yield back.
    Chairman Yarmuth. I thank the gentleman and thank the 
witness.
    I now recognize Mr. Cohen of Tennessee for 5 minutes.

  STATEMENT OF HON. STEVE COHEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Cohen. Thank you, Mr. Chair and members of the 
committee, Ranking Member Womack, and others, for providing us 
this opportunity to address congressional priorities.
    Firstly, I would like to say that if you see a person's 
budget, you know what their--what they value. And I believe it 
is time that our budget aligns with the values of the American 
people, and the needs of the American people.
    Defense spending is one of the primary areas of our budget, 
and takes a great deal of it. It is important, no question 
about it. But we have compelling needs at home that need 
prioritizing for more funding, even more so than defense. We 
must deal with, first of all, our own mortality. That is a 
special interest to each and every one of you, your own 
mortality. And a lesser-included part of that is our health 
care, our health experiences, our health care, and how we deal 
with that.
    Secondly, we need to deal with education and educating our 
populous.
    Third, get people jobs, and we do that through a good 
infrastructure program, which we need to fund. Our 
infrastructure is crippling, and it is important to get goods 
to market and to help our commerce and also to embrace 
diplomacy.
    You know, the likelihood that--Congress also needs to end 
the school-to-prison pipeline, reduce recidivism, end the rape 
kit backlog, and support people who are getting clean from 
drugs. And we can do this by supporting programs in Commerce, 
Justice, and Science.
    The likelihood of any one of us dying from heart attack, or 
heart disease, or stroke, or diabetes, or Alzheimer's, or AIDS, 
or whatever else is pretty darn good. The likelihood of us 
dying from a terrorist attack or in a war involving North 
Korea, Iran, or anybody else is pretty much nil. I am not 
saying we don't need a defense budget. But there is a whole lot 
of fat in that defense budget.
    And the real enemy of the American people, out of all the 
people on the globe, is disease. And we need to do all we can 
to fight the disease. That is our real enemy. And the Defense 
Department against disease is the NIH and the CDC. And the more 
we can help the NIH and the CDC and doing funding on these 
catastrophic diseases, the more we are prioritizing what the 
real enemy is, and what our real purpose should be: keeping 
people healthy and keeping them alive for a longer period of 
time, and keeping their relatives and their loved ones, et 
cetera, alive, too.
    We need to maintain our safety nets: Medicare, Medicaid, 
just part of that health program. And food assistance programs 
also relates well to it. You don't have a good diet and you 
don't have an opportunity, you are going to have disease that 
is going to follow with it.
    There are 15 million American households, 11.6 percent, who 
are food insecure, or were at some time during 2017. That means 
40 million people, including 6.5 million children, live in 
food-insecure households. The wealthiest country on earth 
should not be letting people go to sleep hungry. So we need to 
support SNAP payments and any other payments. We have to see to 
it that people have a chance to get food. And we should try to 
eliminate food deserts and see that people can get fresh 
fruits, fresh vegetables, and eat better, not have a bunch of 
sodium-filled and carbohydrate-filled fast foods.
    Congress needs to invest in diplomacy and foreign aid, as 
well. As our great former Secretary of Defense, Jim Mattis, 
said during testimony before the Senate Armed Services 
Committee, ``If you don't fund the State Department fully, then 
I will need more ammunition, ultimately.'' So I think it is a 
cost benefit ratio. The more we put into the State Department's 
diplomacy, the less we have to put into the military budget as 
we deal with the outcome of an apparent American withdrawal 
from the international scene.
    Diplomacy and foreign assistance saves service members' 
lives, and saves the United States government money by putting 
less soldiers in harm's way, and doing the right thing to try 
to head off crises before they occur. I believe it is contrary 
to what our priorities should be when the Department of Defense 
receives over half of our discretionary spending, and every 
other department and agency has to fight over the scraps of 
whatever is left.
    I appreciate the opportunity to appear before you, and just 
stress all I can--and I know it is a special interest, a 
special interest to each of you individually and your families 
and to every one of your constituents, to make fighting disease 
and improving health outcomes the number-one priority of our 
budget, because that is what we need to be doing.
    So I urge the committee to do this, and I thank you so much 
for your efforts and your time, and I look forward to many, 
many years from now, when Mr. Yarmuth retires and his picture 
will be up on the wall with Mrs. Black, Mr. Ryan, and Mr. 
Spratt, and others.
    [The prepared statement of Steve Cohen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. I thank the gentleman very much for his 
testimony and that comment.
    Any--yes, you are recognized for 5 minutes.
    Mr. Roy. Thanks, Mr. Chairman.
    Representative Cohen, just a couple of quick questions. I 
appreciate you being here and taking the time. We always have 
busy schedules during the day, so thanks for coming here and 
addressing the committee.
    You outlined some of the issues that you believe are 
pressing and important, and things that we should prioritize, 
as a Congress. I share your concern about the well-being of the 
American people, and the health issues. You know, my dad is a 
polio survivor, I am a cancer survivor. You have got hundreds 
of stories, right, in your family network. We all do.
    My question for you is you described the extent to which 
there is waste in defense. Would you also agree that there is 
waste in non-defense discretionary spending?
    Mr. Cohen. There probably is, but I have not seen as 
outrageous reports as the reports I have seen over the years on 
defense, whether it is toilet seats on planes or other examples 
that have been cited, and cost overruns on airplanes.
    Mr. Roy. Well, I think there are a significant number of 
reports that suggest there is waste throughout government. And 
I would agree with you, that there is waste in the Department 
of Defense. But I would say it is--I would suggest there is 
probably equally so in non-defense discretionary.
    But here is my question. For any additional spending that 
you think is necessary for the CDC--you mentioned other health 
care priorities, fighting disease, all laudable goals in 
society--are you suggesting dollar-for-dollar cuts out of DoD 
in order to pay for any increases that you are suggesting 
there?
    Mr. Cohen. I am, indeed, because I think it is our first 
line of defense, and it is the real enemy.
    More than--I am a polio survivor, also.
    Mr. Roy. Oh.
    Mr. Cohen. Now, Dr. Salk and Dr. Sabin kind of took care of 
that.
    Mr. Roy. Right.
    Mr. Cohen. And Gates is a nice trio.
    Mr. Roy. Sure.
    Mr. Cohen. But, you know, you have got heart disease, 
stroke, you name it. And just pick up the paper any day and 
look at the obits. Those are people we lost, and they could 
have been put off.
    We are all going to go eventually, but we can delay it, put 
it off, and make it better. And I just think that is our first 
priority.
    Mr. Roy. Okay, I just wanted to clarify about what we are 
talking about here in order to get--you know, because we are 
sitting here looking at a $1.3 trillion deficit, right, for 
the--this fiscal year, and--or, I am sorry, almost $1 trillion 
of deficit spending this fiscal year. I am trying to look out 
and see, well, what are we going to do next year in order to 
control spending.
    And so that is one option, right? If those who want non-
defense discretionary to go up, they say, well, we want dollar-
for-dollar cuts in defense. If we want defense to go up, maybe 
dollar-for-dollar cuts in non-defense discretionary.
    I guess my question for you is how do you propose we get a 
handle on spending and balancing the budget going forward if 
what you just suggested would be to increase non-defense 
discretionary, do dollar-for-dollar cuts out of defense? We are 
still going to be spending $1 trillion more than we are taking 
in. So what--how--what is our way forward, when we are staring 
at $22 trillion in debt?
    Mr. Cohen. Well, there is a lot of ways. And I think 
revenue is a major way. And I think a lot of the tax cuts that 
we just passed were unnecessary, wasteful, didn't spur the 
economy on, it was a short blip. And we ought to put the taxes 
back on the wealthiest, wealthiest people. And while you know, 
what was proposed by one of my freshman colleagues might be a 
little high, the top rate ought to go up, because people who 
are earning over $10 million, over $20 million can and should 
pay more.
    And the estate tax never should have been changed, even 
when the Democrats did it. It should go back to the level of 
$3.5 million single exemption and $7 million marital exemption. 
Sixty percent of the wealth in this country is passed through 
estate shifts, by inheritance. People ought to earn that money. 
You know, Ivanka Trump just said people don't want a handout, 
they would rather work and earn their own money, they don't 
want to be given something. But 60 percent of the wealth in 
this country is passed by inheritance, and that is where the 
estate tax comes in. And we could raise a lot of money there by 
putting it back to the right areas where we did, and not give 
tax breaks to the----
    Mr. Roy. Do you think there is $1 trillion of revenue on 
the table in tax increases?
    Mr. Cohen. There certainly can be. We had $1 trillion of 
deficit created because of tax decreases.
    Mr. Roy. So the answer, then, what I am hearing, is 
increase non-defense discretionary, to cut defense, to increase 
taxes to the tune of a significant amount of money, upwards of 
$1 trillion. That is the suggestion?
    Mr. Cohen. You know, I am kind of like, I guess, Everett 
Dirksen, I think it was, and it might have been, you know, a 
million here and a trillion there, and you have got real money. 
I don't know trillions and billions. It could be billions. I 
don't want to go with trillions. But whatever it is, I mean, 
there is money that we gave away in the tax cuts, and there is 
money we gave to a bunch of people who are going to inherit 
money that they otherwise would not have when we reduce that 
rate.
    The rate is the big thing. It is not the exemption level. 
It is the rate, going from 55 percent down to 35 percent. That 
gives the billionaire folks hundreds of millions of dollars to 
pass on----
    Mr. Roy. So last----
    Mr. Cohen.----don't want it, because they want to work.
    Mr. Roy. With my time decreasing, I obviously believe that 
the tax cuts have paid for themselves, and the CBO report has 
suggested such. I think we have more than paid for the tax cuts 
that have been put in place to then generate the revenue that 
we are now seeing with three percent economic growth last year. 
So I would, obviously, respectfully disagree. But I thank you 
for your time.
    Mr. Cohen. You are welcome, sir.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlelady from North Carolina----
    Mr. Roy. Thank you.
    Chairman Yarmuth.----Ms. Adams.

 STATEMENT OF HON. ALMA S. ADAMS, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Ms. Adams. Thank you, Chairman Yarmuth and Ranking Member 
Womack, for the opportunity to be with you today and to address 
the funding priorities of the House Agriculture Committee for 
fiscal year 2020. The committee succeeded in passing the 2018 
Farm Bill in the waning days of the last Congress. Together 
with our Republican colleagues, we worked extremely hard to 
make sure that every program contained in this bill was an 
effective, transparent, and fiscally-responsible mechanism to 
improve the lives of all Americans. The bill was budget 
neutral, and it passed with overwhelming and historic 
bipartisan support. In the House more members voted for the 
2018 Farm Bill than have ever voted for a farm bill in history. 
What we did in that legislation was done thoughtfully and with 
input from stakeholders across the country.
    As the Budget Committee is aware, the 2018 Farm Bill 
directs USDA to implement a broad range of programs that deal 
with the process of producing food, fiber, and fuel across 
America. These programs include critical nutrition assistance 
for working families; new tools to prevent animal diseases; 
improved risk management for farmers; conservation and 
renewable energy incentives; forest management tools; foreign 
market development assistance; research into emerging crops 
like hemp; and resources for young, veteran, and under-served 
producers; support to combat opioid addiction and provide rural 
mental health services; and investment in academic research and 
innovation in our 1862, 1890, and 1994 land-grant universities.
    Simply put, this bill contains programs that directly and 
indirectly serve every single American. These programs are 
critical, given the various situations so many in our 
agriculture industry face. And whether that is a challenge from 
volatile weather and potential livestock and plant pest and 
disease, or falling farm income due to trade disputes, the farm 
bill helps families in those rural communities deal with the 
adverse conditions facing them.
    I do want to urge the committee to acknowledge the 
seriousness of these challenges and, through your process, 
maintain the fiscal commitments that we have made to fighting 
them through the farm bill in the coming year.
    I thank you for the opportunity to be here and to address 
the committee. I am pleased to answer any questions you may 
have. Thank you, Mr. Chair.
    [The prepared statement of Alma S. Adams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentlelady.
    Any questions for the witness?
    Thank you once again.
    Just--I will review the order now for the next few 
witnesses. It is Ms. Miller, Ms. Scanlon, Dr. Bucshon, and Dr. 
Burgess.
    Ms. Miller, you are recognized--from West Virginia--you are 
recognized for 5 minutes.

STATEMENT OF HON. CAROL D. MILLER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mrs. Miller. Okay. Again, thank you, Chairman Yarmuth and 
Ranking Member Womack, for having me here today. It is my 
pleasure to be here.
    Today I want to share with you issues that are critical to 
my district and the importance of having a budget that supports 
the health and well-being of our communities, while also being 
good stewards of taxpayers' dollars. I will focus my remarks on 
three central areas: career and technical education; the energy 
industry; and infrastructure.
    Across the United States, career and technical education 
programs, known as CTE, have helped prepare students for the 
workforce. I am sure that many of you have seen this within 
your own districts. These programs incorporate what students 
are learning in the classroom and give them real-world 
applications by developing skills needed to enter the working 
world upon leaving high school.
    In my home state of West Virginia, 37 percent of all 
students have completed at least one CTE program, and have 
earned more than 14,000 industry-recognized credentials.
    Further, students who participate in CTE programs are more 
likely to graduate high school, as well. Whether during high 
school or after, as part of a continuing education, investing 
in CTE will help equip our children and grandchildren with the 
skills and knowledge they need to succeed. The demand for a 
skilled and educated workforce is continuing to grow, and 
programs like CTE help ensure we have the people ready to 
succeed in their journey in life.
    It is no secret that the opioid crisis is devastating 
communities around the country, and especially in my home state 
of West Virginia. It has torn families apart and taken too many 
of our children. Along with the toll taken on family and 
friends, our opioid epidemic has taken too many out of the 
workforce. In addition to giving students the ability to enter 
the workforce, programs like CTE can help give young adults 
plans for the future, hope outside of drugs, and keep our 
students on a path towards success.
    I also want to stress the importance for any proposed 
budget to protect our energy industry and those who work in it. 
West Virginia is an energy state. It employs our people and 
powers our communities. The previous Administration instituted 
regulations that devastated the coal industry in my state, and 
eliminated many precious jobs. We cannot go back down that 
road.
    That is why I am worried about proposals like the Green New 
Deal. I urge the committee to not consider overreaching 
proposals such as this when crafting the budget of fiscal year 
2020. Plans like the Green New Deal pose an imminent threat to 
the economy of my state and the livelihoods of my constituents.
    In West Virginia nearly 30,000 people work in the energy 
industry, and 93 percent of our electricity comes from coal. I 
urge the committee to reject any proposals that would regulate 
the energy industry out of business.
    We all have a duty to protect our planet and to leave our 
home better than we found it for our children and our 
grandchildren, so let's incentivize innovation, not taxation 
and regulation, when it comes to protecting our environment. We 
have lifted so many people out of poverty and built the America 
of the 21st century, but we still have much more to do.
    In my district, companies are beginning to work on taking 
previously toxic material and transforming it into inert rock, 
pure clean water, and rare earth elements used in everything 
from pacemakers to cell phones. Again, we need a budget that 
incentivizes innovation that will deliver real solutions that 
we can implement today.
    Finally, I ask the committee to include money for 
infrastructure in the fiscal year 2020 budget. Across the 
United States we have crumbling roads and bridges. My district 
lacks easy access to highways and interstates, which make it 
difficult for my constituents from the most rural parts of the 
third district to access services in more populous areas of the 
state. We need to innovate our infrastructure and invest in our 
roads, railways, and rivers to connect our state and transport 
our resources.
    There is a great need all across the country to improve and 
maintain thoroughfares, while also enhancing safety. Any 
federal money towards infrastructure can have a positive 
economic impact in our local communities through increasing 
growth and creating jobs.
    As an important part of infrastructure I also ask the 
committee to consider the inclusion of rural broadband in the 
fiscal year 2020 budget. Many communities across the United 
States lack reliable access to the internet.
    I was pleased to see Facebook's announcement this week that 
it will be laying 275 miles of fiber in West Virginia. I know 
Governor Justice and Senator Capito worked tirelessly on 
bringing this project to fruition, and I hope we can continue 
efforts like this across the United States. Increasing 
connectivity in rural America can preserve the rural way of 
life, while also growing local economies, delivering a quality 
education, promoting tourism, and enhancing tele-health.
    Thank you again, Chairman and Ranking Member Womack. Thank 
you.
    [The prepared statement of Carol D. Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
   
    
    Chairman Yarmuth. I thank the gentlelady for her testimony. 
Any questions of the witness?
    Mr. Roy. Just one quick question, Mr. Chairman, to my 
friend from West Virginia.
    Thanks for being here today. Thanks for taking the time. 
Would you agree with the assessment that in the early 1870s the 
average American family spent about--more than 80 percent of 
its income on food, clothing, and shelter, and that today about 
a--after a roughly threefold increase in per capita energy 
usage, and a nearly fourteenfold increase in real per capita 
GDP, Americans spend a third of their income on these basic 
necessities?
    In other words, is fossil fuels making lives better in this 
country and around the world?
    Mrs. Miller. Fossil fuels do make lives better.
    Mr. Roy. And can I also ask if you would agree that, 
according to a 2015 report by the International Energy Agency, 
that an estimated 1.2 billion people, 17 percent of the global 
population, remain without electricity, and 2.7 billion people, 
38 percent of the global population, put their health at risk 
through reliance on the traditional use of solid biomass for 
cooking, things like that? Do we make the world a lot better 
when we export our fossil fuels and our energy around the 
world?
    Mrs. Miller. Absolutely. It is most important.
    Mr. Roy. Thank you, ma'am.
    Mrs. Miller. Thank you.
    Chairman Yarmuth. I thank the gentleman. I am going to 
defer now--we have two members of the leadership who are going 
to--or at least scheduled to testify, so I am going to defer to 
them right now and interrupt the schedule.
    So I recognize Assistant Speaker Lujan for 5 minutes.

 STATEMENT OF HON. BEN RAY LUJAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you, Mr. Chairman. To our Ranking
    Member, thank you for the honor of being before the Budget 
Committee.
    I also want to recognize Chairman Pallone of the Energy and 
Commerce Committee, who invited me to testify on the priorities 
of the committee for the 116th Congress.
    The Energy and Commerce Committee has a broad mandate. Our 
work touches nearly every aspect of Americans' lives. That is 
why our committee knows there is much work to be done. We must 
address our changing climate, preserve an open Internet, 
rebuild our crumbling infrastructure, and ensure every 
individual in this country has affordable and high-quality 
health care coverage.
    Our agenda will be ambitious. And, most importantly, it 
will ensure that all those living in the U.S. will be able to 
reach their full potential.
    In this new majority it feels fitting to draw strength and 
wisdom from an extraordinary former dean of the House, our very 
own Chairman Dingell, who often said it is imperative that we 
not compromise public safety in the name of being penny wise 
and pound foolish. I cannot agree more.
    Our budget must reflect serious, sustained investments to 
fight climate change. Climate change represents an existential 
threat to our future, our way of life, and our economy. We 
simply cannot wait any longer to act.
    The federal government, our national labs, the universities 
are unique and invaluable resources that we must mobilize to 
address the climate change crisis, in partnership with state 
and local governments, and the private sector. The Energy and 
Commerce Committee will act to reaffirm America's role as the 
leader in the research, development, demonstration, and 
deployment of clean and renewable energies.
    Our budget must also recognize the importance of a free 
flow of information. A free and open Internet has 
revolutionized the way we do business, changed how we learn and 
communicate with loved ones, and expanded our ability to access 
information. We must keep this innovative spirit alive, which 
is why the Energy and Commerce Committee will pass the Save The 
Internet Act to restore the net neutrality protections 
President Trump's Federal Communications Commission repealed.
    We must also affirm our commitment to modernizing the 
nation's infrastructure to create jobs, promote economic 
growth, and protect public health and the environment.
    The Energy and Commerce Committee will take action on 
legislation like the LIFT America Act, which makes key 
investments in modernizing an inadequate broadband system and 
the electric grid, in expanding renewable energy infrastructure 
and healthcare, and cleaning contaminated drinking water.
    We will decisively act on health care. Our budget must make 
a steadfast commitment to ensure that every American can access 
quality health care, that every senior can afford their 
prescriptions, that every child is sent to a healthy school, 
that every person is covered, no matter their preexisting 
conditions.
    The Energy and Commerce Committee is hard at work 
unraveling the sabotage done to our health care system over the 
last few years, and especially under the last two years with 
this current Administration. My colleagues are in the committee 
room right now, discussing how we can strengthen health 
insurance markets, enroll more eligible individuals, and 
decrease the costs of coverage.
    But we won't stop there. While Republicans want to talk 
about what Americans can't have, Democrats want to talk about 
what Americans can be. We believe Americans can be healthy and 
prosperous, and how much money you make and where you live 
should not have a determination on your potential.
    I want to conclude my testimony today by recognizing the 
importance of this moment. And while I am sure that Americans 
are not sitting on the edge of their sofas watching the budget 
hearing today, I want them to know that we are hard at work 
prioritizing the needs of the families, so that everyone can 
live a better life.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Ben Ray Lujan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentleman for his testimony. 
Any questions of the witness?
    Mr. Roy. A quick question, thank you, Mr. Chairman.
    Representative, thank you for taking the time for being 
here out of your busy day. I appreciate your time.
    You rattled off a whole lot of priorities that I think were 
important for you, in terms of--whether it was preexisting 
conditions, sort of health care for all, and a number of 
different priorities.
    What is your suggestion for paying for these things? We 
have a--you know, $22 trillion of debt, and over, you know, a 
$1 trillion deficit we are looking at. What do you view as the 
way that we pay for those things? Is it cuts out of defense 
spending? Is it tax increases? Or what are you suggesting?
    Mr. Lujan. Mr. Chairman?
    Chairman Yarmuth. The gentleman is recognized.
    Mr. Lujan. I appreciate the question, Congressman Roy. Just 
as when Democrats worked to pass the Affordable Care Act, 
sadly, when it was passed on a--pretty much a partisan vote in 
the House, that was a piece of legislation that Democrats 
worked to ensure that there were pay-fors. As a matter of fact, 
it was going to save money. Our Republican colleagues did not 
accept that debate, the facts associated with Congressional 
Budget Office that were laid out that showed that was paid for.
    So, going forward, I would hope that, as you characterize 
my priorities as mine alone, I would hope that these are shared 
priorities of both sides of the aisle in the Congress to help 
lower costs for the American people when it comes to health 
care, protecting people with preexisting conditions, as well as 
lowering prescription drug prices.
    And in the same way that under the last Congress, under 
repeal efforts of the Affordable Care Act, that we do 
everything we can not to eliminate or completely gut Medicaid 
funding for the country, but that we actually look to bolster 
those initiatives, and that we find ways to pay for them.
    Mr. Roy. Well, I appreciate that sentiment. I think that 
any number of the studies I have looked at for, you know, 
Medicare for all, or for other provisions that would talk about 
how we pay for health care, that--I have seen studies saying 
there is $30 to $40 trillion of costs that we deal with with 
respect to those kinds of plans. So that is what I am 
wondering, how we would pay for that.
    My next question is on--with respect to climate change. You 
suggested that we have a crisis or, you know, a problem that we 
are facing with climate change that is somewhat existential. Do 
you believe that we are facing a apocalyptic kind of situation 
with climate change?
    Mr. Lujan. Well, Mr. Roy, I know that you are also a 
supporter of our military, and concerned with the national 
security. And I would encourage you to read the briefings that 
are coming from the Department of Defense itself, as it 
pertains to the safety and security not just of our country, 
but of our soldiers.
    Most people agree that we need to act on this. As a matter 
of fact, 98 percent of climate scientists agree the facts lead 
us where they need to.
    I think you are also a supporter of NASA and NOAA. As we 
look at those important installations and the science and 
research that takes place, there alone present those 
opportunities for the American people to read. And if you look 
at what they say, important federal agencies that we all 
support through our budgetary investments, those are where the 
facts are.
    I am not a climate scientist, but I like to understand the 
importance of the science and the research taking place. And 
look, when the Department of Defense, NASA, and NOAA, and 
climate scientists agree, it is something that the American 
people and the world should take notice of.
    Mr. Roy. So if CO<INF>2</INF> is the problem, and if that 
is what you are suggesting, is that we have got a problem with 
respect to climate change, will you commit to pushing an all-
nuclear power supply, which has--which would produce zero 
CO<INF>2</INF>?
    Mr. Lujan. Mr. Chairman, Mr. Roy, I think that when we are 
looking at reducing emissions there are many ideas that are on 
the table that will lead us to a reduced emission state. 
Currently, when you look at proposals, including those that 
have been objected to by Republicans, they also include 
generation from nuclear entities.
    But I think that we should have an honest conversation 
about what this is, and what it is not.
    Mr. Roy. So----
    Mr. Lujan. And there should be agreement amongst all of us 
that we need to reduce pollution, just as we did with the 
problems we had in the 1990s, with the negative impacts to 
farmers across America with acid rain. When there were 
provisions put in place to reduce NOx and SOx in America, and 
the utilities and private-sector of America said that it would 
bankrupt them, they actually exceeded their responsibilities.
    Mr. Roy. So----
    Mr. Lujan. There is ways to get this done.
    Mr. Roy. So from my perspective--and I will just wrap up, I 
know we got--need to move on--is just if we have a 
CO<INF>2</INF> crisis--I am not suggesting that we do or don't. 
But if those who suggest we do, it would seem to me that we 
want to push clean-burning natural gas, export clean-burning 
natural gas around the world, which you are doing, and the 
innovation which is driving down CO<INF>2</INF> production in 
America, 25 percent reductions, let's get it to India and 
China. And then let's adopt nuclear technology so that we can 
have zero emissions.
    But yet I don't see that from those on the other side that 
might say that we are going to have an apocalyptic end times in 
12 years because of CO<INF>2</INF> reduction.
    I yield back.
    Mr. Lujan. Mr. Chairman, if I just may, if Mr. Roy would--
--
    Chairman Yarmuth. The gentleman may respond.
    Mr. Lujan.----take a look at the renewable electricity 
standard piece of legislation that I have authored, and others, 
I think you might find that there is a reason that you should 
cosponsor it, sir. So I will be reaching out to the office of 
yourself and others and see if we could get you on board.
    Mr. Roy. I am happy to look at any legislation that would 
advance the interests of the United States. Thank you.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired. The gentleman from Texas, Mr. Flores, is recognized.
    Mr. Flores. I thank you, Mr. Chair. I would just like the 
record to reflect that, in terms of the proposals that were 
laid out, the cost for the Green New Deal is roughly $93 
trillion. The cost of Medicare for all is $40-some-odd trillion 
dollars, for a total of over $136 trillion. The total wealth of 
every man, woman, and child in this country is $108 trillion. I 
just wanted to show--I wanted the American people to know what 
the cost is of these programs versus the total value of the 
families in this country.
    I yield back.
    Chairman Yarmuth. I thank the gentleman. I thank the 
Assistant Speaker for his testimony.
    And now I recognize the gentlelady from Pennsylvania, Ms. 
Scanlon, for 5 minutes.

    STATEMENT OF HON. MARY GAY SCANLON, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Ms. Scanlon. Thank you, Chairman Yarmuth and Ranking Member 
Womack. It is an honor to appear before you today in my role as 
Vice Chair of the Committee on the Judiciary.
    The work of the Department of Justice, the federal courts, 
the Department of Homeland Security, and all of the programs 
overseen by the Judiciary Committee are vital to safeguarding 
the values upon which our country was built. While there may be 
disagreements with and sometimes sharp criticism of certain 
agencies, their leadership, or priorities, I believe we can all 
agree on the fundamental importance of their missions.
    I urge this committee to fund these critical programs and 
agencies at levels appropriate to accomplish their important 
work. I would like to highlight a few specific funding 
priorities that I hope you will consider favorably.
    To begin, we recommend funding the Executive Office for 
Immigration Review at a level that will address the 
overwhelming backlog of immigration cases. Perhaps no issue has 
caused more passionate debate in Congress than that of our 
country's broken immigration system. However, I trust we can 
all agree that, regardless of how we believe immigration 
policies must be reformed, fair and timely adjudication of 
cases is necessary both to ensure access to justice and 
effective enforcement of our laws. Therefore, we recommend that 
the office be funded at a level appropriately--appropriate to 
effectively administer its mission.
    In addition, while the House has already demonstrated a 
commitment to addressing this country's gun violence epidemic 
through the passage of H.R. 8 and H.R. 1112, Congress can and 
must do more to ensure that guns do not fall into the hands of 
those who would commit violent acts.
    To that end, we should increase funding for the Bureau of 
Alcohol, Tobacco, Firearms and Explosives, and allocate further 
resources to processing applications for regulated firearms in 
order to protect our communities.
    In December Congress passed the bipartisan First Step Act 
to initiate urgently-needed reforms to our criminal justice 
system. Reducing federal incarceration and providing prisoners 
with rehabilitative programs to end recidivism is both a moral 
necessity and a fiscally prudent move. Criminal justice reform, 
if funded at appropriate levels, will save money which can be 
invested to reduce crime and make our communities safer. 
Congress should fully fund the First Step Act and the Bureau of 
Prisons' efforts to expand rehabilitation reduction programs.
    I would also like to call attention to the 9/11 Victims 
Compensation Fund, which announced that, without additional 
funding, it will be unable to continue fully compensating 
claimants. Congress originally enacted the fund to compensate 
injuries and death suffered in the September 11th terrorist 
attacks. Congress subsequently expanded the fund to include 
responders and survivors would have become ill and died 
following exposure to the toxic debris released in that attack.
    Chairman Nadler intends to report H.R. 1327, which would 
authorize funding for the VCF through fiscal year 2090. We need 
to ensure sufficient funding so that first responders, 
survivors, and their families do not face financial ruin due to 
the ongoing health effects caused by 9/11 attacks.
    And finally, I want to highlight the funding needs of the 
Legal Services Corporation, an agency with which I worked for 
over 34--30 years before coming to Congress last year. LSC, 
which provides civil legal representation to Americans living 
at or near poverty, has enjoyed bipartisan support since it was 
created in 1974. LSC funds legal aid organizations that cover 
every county in every state in our country, returning tax 
dollars back to communities to protect the most vulnerable: 
veterans and the elderly, children and domestic violence 
victims.
    Civil legal aid is one of the best anti-poverty programs 
that our country has. It protects individuals from losing 
housing or benefits. It helps families stay together, and 
protects vulnerable family members from abusive relationships, 
so they all can remain healthy and productive, and contribute 
to our communities and economy.
    Civil legal aid stimulates economic growth, saving millions 
of dollars that would otherwise be spent on health care, foster 
care, emergency shelters, and law enforcement.
    These are only a few of the vital programs within the 
Judiciary Committee's jurisdiction. I trust you appreciate the 
important work of the departments overseen by Judiciary, and 
their critical role in ensuring the constitutional rights and 
procedural safeguards that have protected our democracy for 
over two centuries. Thank you.
    [The prepared statement of Mary Gay Scanlon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    Chairman Yarmuth. I thank the gentlelady.
    Any questions of the witness?
    I now recognize the gentleman from Indiana, Dr. Bucshon----
    Mr. Bucshon. Thank----
    Chairman Yarmuth.----for 5 minutes.

 STATEMENT OF HON. LARRY BUCSHON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Bucshon. Thank you, Chairman Yarmuth, Ranking Member 
Womack. Thank you for giving me the opportunity to appear today 
before the committee to talk about the detrimental impact that 
Medicare for all would have on the federal budget and the 
health care of all Americans.
    As you know, Medicare for all would establish a government-
run, single-payer health care system that would completely 
upend the health care system as Americans know it today.
    For example, H.R. 1384 would take away the health plans of 
more than 150 million Americans by prohibiting employers and 
unions from offering any competing health benefits; end 
Medicare as seniors know it today by eliminating Medicare 
Advantage plans, which are popular with seniors, and deliver 
higher-quality health care at a better price than traditional 
Medicare.
    Medicare for all, which would be the only health care plan 
allowed under federal law, would only pay for treatments and 
services that the federal government determines are necessary 
or appropriate for the maintenance of health or for the 
diagnosis, treatment, or rehabilitation of a health condition. 
The result of this total government takeover of Americans' 
health care would place Washington bureaucrats, and not doctors 
and patients, completely in charge of the health care decisions 
of Americans.
    Not only will Washington decide what health care services 
and treatments Americans can have access to, but it will 
effectively decide the physicians and health care providers 
that you can see.
    Medicare for all would also authorize a government takeover 
of health care treatments by allowing the federal government to 
steal a company's intellectual property if the company and the 
federal government cannot come to an agreement on the price of 
a particular treatment. Not only would this completely do away 
with the constitutionally-protected right to intellectual 
property, but would likely have a chilling effect on innovation 
of new treatments and cures, as well as the associated good-
paying jobs of tens of thousands at these companies, as America 
is the global leader in medical innovation.
    Under Medicare for all, what company would spend tens of 
millions of dollars developing the latest medical breakthrough, 
only to see the federal government take it away?
    Not only would Medicare for all be bad for the health care 
of Americans, it would be catastrophic for the fiscal health of 
the nation. Our nation is already on a spending-driven path to 
fiscal bankruptcy. On our current budget path, CBO's June 2018 
long-term budget outlook projects that spending will exceed 25 
percent of GDP by 2034, and debt held by the public will exceed 
100 percent of the GDP even earlier in 2031.
    Apart from a short-term, temporary period during World War 
II, federal spending and publicly-held debt have never reached 
these astronomical levels that we are projected to reach on a 
sustained and growing basis in the near future.
    Medicare for all would accelerate our movement down this 
path. Under this plan, the federal government would foot the 
bill for 100 percent of all health care services and 
treatments. Beneficiaries would have no--have zero cost-
sharing, meaning no deductibles, coinsurance, co-payments, or 
similar charges imposed on an individual for any benefits 
provided. By conservative estimates of a less comprehensive 
version of Medicare for all than the one I just discussed, and 
the one recently introduced in the House of Representatives, 
the plan would add approximately $32 trillion over 10 years to 
the federal budget, which is approximately $255,000 per 
American household, on average.
    As humorist P.J. O'Rourke once said, ``If you think health 
care is expensive now, wait until you see what it costs when it 
is free.''
    We know that our nation's long-term fiscal problems are 
structural and driven by the growth of mandatory spending, 
primarily Medicare and Medicaid. As a nation, we must find a 
way to get rid of--to get our health care costs under control, 
and not just the cost of insurance, the cost of the product, 
health care, in order to get off the path to national 
bankruptcy.
    However, the only thing that Medicare for all would get 
us--would get under control is the health care decisions of 
Americans, centralizing them with Washington bureaucrats in a 
one-size-fits-all system. And a one-size-fits-all health care 
system ultimately fits no one, and it doesn't work with our 
budget.
    Thank you for the opportunity to testify in front of your 
committee. I am open to questions.
    [The prepared statement of Larry Bucshon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentleman. I just want to 
clarify. The bill you were talking about was the bill that Ms. 
Jayapal introduced last week, on Wednesday, and that $32 
billion cost was not based on that legislation.
    Mr. Bucshon. It was based on, by many people's estimations, 
actually a less comprehensive version, which means her version 
potentially could cost even more.
    Chairman Yarmuth. We will see about--yes, we will see.
    And just--and you are aware that there have been a number 
of other proposals to expand Medicare.
    Mr. Bucshon. Yes, right, you know, early buy-ins, and those 
things. I am just addressing the current Medicare-for-All 
proposal.
    Chairman Yarmuth. Right.
    Mr. Bucshon. Primarily the one that was introduced in the 
House, but others.
    Chairman Yarmuth. I thank the gentleman. The Ranking Member 
has a question.
    Mr. Bucshon. Yes, sir.
    Mr. Womack. Both of the gentlemen seated at the table right 
now are physicians, providers.
    So, Dr. Bucshon, just a quick question. I know you 
providers have studied these types of medical--or these types 
of health care programs through and through. What, in your 
opinion, would a Medicare for all, as we see it, whether it is 
filed in the bill that is before the Congress right now, or 
some of the other provisions, what would a Medicare for all, a 
government-run, single-payer health care system do to the 
incentive for the bright young men and women of our country to 
enter the health care professions, when they have a lot of 
other options.
    Mr. Bucshon. Right.
    Mr. Womack. Because of their----
    Mr. Bucshon. Well, I mean, it would dramatically change 
that. I mean, as you probably know, people that go into 
medicine tend to be entrepreneurial types, many of them, and 
they want to work in a system that allows them to practice 
medicine and have the control of the medical decision-making 
based on their expertise and the input from the families and 
the patients. And I think that would be dramatically hindered 
under this plan.
    Essentially, every medical provider in America would now be 
a government employee. Some estimates say that there would be a 
40 percent or so reduction in reimbursement and income level to 
health care providers, particularly physicians, which would 
dramatically decrease the incentive for any young person who 
has a lot of options to enter the health care field. So I think 
it would dramatically decrease the incentive for people to 
enter health care.
    Chairman Yarmuth. Anyone else have a question?
    Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    And Dr. Bucshon, this is probably going to sound a little 
bit redundant, but I want to dig just a little bit deeper.
    You know, the focus of the media has been on the Medicare 
for all proposals that have come out of the House and the 
Senate. But there are other Democrat proposals that would 
expand the role of government in health care through a Medicare 
buy-in. What are your views on how these plans will affect 
patients, physicians, and facilities?
    Mr. Bucshon. Again, very similar to my answer to the 
Ranking Member, I think you are--you know, first of all, from a 
fiscal budgetary standpoint, I just don't see, without dramatic 
tax increases--in our current system, if we don't get the 
overall cost of health care down, how it would be--put us on a 
sustainable path.
    And so--and the other thing is I think it is a stepping 
stone to Medicare for all. I mean it is a--I think many of 
these plans are introduced as an incremental advancement down 
that pathway. And so, you know, it would, again, cause long-
term fiscal problems with the country, it would put health care 
under--for more and more people, under the control of the 
federal government.
    And my main concern as a provider is that that takes away 
the control of health care decision-making from the patient, 
the family, and the physician. And it would just be 
detrimental, in my view, to the overall sustainability of our 
system, as a whole.
    Mr. Johnson. Okay, thank you. I yield back.
    Chairman Yarmuth. I thank the gentleman.
    Thank you, Mr. Bucshon.
    Mr. Bucshon. Thank you.
    Chairman Yarmuth. Now I recognize Dr. Burgess from Texas 
for 5 minutes.

   STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thanks, Chairman, for the recognition. Thank 
you for doing this Member Day, Mr. Womack. I have attended 
these before when you were chair, I have enjoyed them.
    I like what you have done with the place. It certainly 
seems to have--I guess it was included in the budget.
    I want to share my thoughts about the budget resolution for 
fiscal year 2020, and concerns about this committee's interest 
in pursuing single-payer, government-run health care.
    Health policy has a budgetary component, I accept that. But 
on the policy side, our committee, the Committee of Energy and 
Commerce, is one of the principal committees of jurisdiction 
that involves itself deeply in the genesis and management of 
health care policy.
    Look, the Democrats' one-size-fits-all, government-run, 
single-payer health care bill would be an epic fail to provide 
access to quality health care for Americans. I hope I will have 
the opportunity to answer the questions Mr. Womack and Mr. 
Johnson and Mr. Roy--I would appreciate your question, as well.
    But this plan will lead to a massive tax increase. It will 
eliminate private insurance. And it will accelerate the pending 
bankruptcy in the already dwindling Medicare Trust Fund.
    The constituents in my district are struggling. They are 
struggling to afford their health insurance. And I am sure my 
district is not the only one where people come in to me 
complaining about their high premiums and their high 
deductibles. What good is health care insurance if you are 
afraid to use it because you cannot afford your copay or your 
deductible? This is an issue that I would like to see us 
tackle, and I am confident that a government-run, single-payer 
health care system would only further erode our nation's health 
care.
    I am the son of a physician, a physician who chose to leave 
Canada's government-run health care system behind for the 
United States. I worry that the central state control of health 
care as it exists in other countries would be damaging to the 
doctor-patient relationship.
    As a physician, I do not believe that the government should 
interfere or hinder a doctor's ability to act in the best 
interest of his or her patient. I wish the concept of a 
government dictating a physician's practice and decisions was 
unthinkable. However, I find myself here today having to 
deconstruct the idea of further government control of health 
care.
    A proposal by one of the members of your committee would 
implement the global budget. And once that is set, hospitals 
and institutions would be required to stick to it. You know, 
that sounds like a block grant. Maybe that is a good thing.
    But there is another part of the bill that talks about 
making this expenditure an entitlement, so I am a little 
confused. Is it a block grant or is it an entitlement? And, as 
this committee knows better than any committee in the United 
States House of Representatives, the thing that is driving our 
debt and deficit is that expenditure which is already baked 
into the cake over which we have no control; it is that 67 
percent of the budget that is on auto-pilot. It is on automatic 
spending.
    Today we should be focusing on parts of health insurance--
the insurance market that are working for Americans. According 
to a survey from America's health insurance plans, over 70 
percent of Americans are satisfied with employer-sponsored 
health insurance. And it provides robust protections for 
individuals.
    And guess what? There is no prohibition on covering--or 
there is a prohibition on failing to cover preexisting 
conditions. And that is not the Affordable Care Act, that is 
the ERISA law. That is Senator Javits's legislation from 1973.
    Quite simply, the success of the employer-sponsored 
insurance market is not worth wiping out with single-payer 
health care. Since President Trump took office, the number of 
Americans having employer-sponsored health insurance is between 
2.5 and 5 million more than it was over--just a little over two 
years ago. That is more than at any time since 2000. Democrats 
want to abolish that type of insurance entirely.
    Look, I was the senior policy advisor, health policy 
advisor, for Senator McCain's presidential campaign. Senator 
McCain proposed a plan that would impact ERISA plans, and I 
learned firsthand that is not something that you want to mess 
with. People don't take kindly to you changing their employer-
sponsored health insurance.
    So, instead of it building on the success of our existing 
health insurance framework, this radical, single-payer, 
government-run system would tear it down. It would eliminate 
employer-sponsored health insurance, private health insurance, 
and popular Medicare Advantage plans.
    The single-payer health care system would be another failed 
attempt at one-size-fits-all. Americans are all different, and 
a single-payer health care system will not meet the varying 
needs of each and every individual. Single-payer is not one-
size-fits-all, it is one-size-fits-no-one.
    I would be happy to take your questions.
    [The prepared statement of Michael C. Burgess follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. Does any member have a question of the 
witness?
    Ranking Member?
    Mr. Womack. Dr. Burgess, the same question I ask of Dr. 
Bucshon, and that is what, in your opinion, are the second and 
third-order effects of a Medical for all in whatever form in 
the provider community?
    Mr. Burgess. How much time do you have? Look, people don't 
hazard big things for no gain.
    It is true that some of us who went into medicine went in 
for the most altruistic of reasons, we wanted to help our 
fellow man, and it really wasn't a concept of earning a good 
living in that profession. It is because it was what I was--
almost as if it was in my DNA. It was what I was born to do. I 
am the son of a physician, my grandfather was a physician. That 
is what I was destined to become.
    However, as we have seen today, I mean, it costs a lot of 
money to go to medical school. I mean our students are 
finishing medical school and their residency with crushing 
amounts of debt. You can't expect them to take on that kind of 
liability, which basically will subjugate them the rest of 
their lives, if you are not willing to pay the freight on the 
other end, on the compensation side.
    And as we heard from Dr. Bucshon, the expectation is that 
in a single-payer, government-run system, where there is no--
you just take--you know, you become a price-taker. You take 
what they are spending.
    And also, I think the bigger question is what would you do 
to actually make things better? And this is what I never 
understood. And, of course, I wasn't involved when the 
Affordable Care Act was written. I wasn't invited into those 
closed-door sessions. But when you look at the success of the 
employer-sponsored health insurance in this country--and again, 
over 70 percent now covered with employer-sponsored health 
insurance--the favorability rate is off the charts high. And 
you will find that out when you go to take it away from people, 
because they will be mighty upset.
    Why did we not look at expanding the availability of that 
type of insurance? In the individual market it is an entirely 
different situation. And so, for those individuals in the 
individual market, yes, they do have exclusions for preexisting 
conditions, there are things where the insurance companies have 
made some rules that are perhaps not consistent with good 
health and benefits.
    However, this House, or the House under Republicans, almost 
every year that I have been in service here has passed a bill 
that dealt with association health plans. Association health 
plans would allow small-group markets and individual markets to 
buy into--to pool together and buy into those large-group 
markets with ERISA protections, protections against exclusions 
for preexisting conditions that have been in existence since 
1973.
    Why wouldn't we have done that, rather than what was done? 
And the answer to that question is do you want the individual 
or the individual, in concert with their employer, to be in 
charge of their health care? Or do you want the government to 
be in charge?
    And if the answer is you want the government to be in 
charge, then no, you don't care anything about employer-
sponsored health insurance, and you are willing to take it away 
from people, even at some political hazard and peril. And I 
guarantee you there is political hazard and peril if you go 
down that road.
    But why wouldn't you provide something that people actually 
like, and what people actually want? The big fail of the 
Affordable Care Act is that you provide a subsidy and a 
mandate, and you have destroyed, of course, the market. Why 
would an insurance company sell me something that I actually 
wanted to buy, when I have got to buy what they are selling 
under penalty of law, or I am going to get a big fine?
    That is what is so baffling about the system that we find 
ourselves with today. And we are going to make it worse.
    Mr. Womack. I thank the gentleman.
    Mr. Burgess. Thank you.
    Chairman Yarmuth. Thanks. Mr. Johnson?
    Mr. Johnson. Dr. Burgess, you are not very passionate about 
these things, are you?
    Mr. Burgess. Well, I think about it from time to time. But 
otherwise, I am just worried about how we broke the Internet 
and it doesn't work any more.
    Mr. Johnson. Yes. Well, I appreciate your passion. You--our 
Republican Ranking Member, Republican leader, asked the 
question about how it will affect--how Medicare for all will 
affect the provider community. And you are a member of that 
provider community.
    What happens to the patient? I mean if we see what many are 
projecting could be as much as a 40 percent decrease in 
payments to providers under a Medicare for all scheme, which 
will not cover the costs of operating their practices, what is 
that going to mean for the millions of Americans that call 
themselves patients?
    Mr. Burgess. Well, let me take this in two parts. First 
off, just the effect on the practice of medicine. I thought it 
would take longer for the deleterious effects of the Affordable 
Care Act to affect my profession. It was astonishingly fast. 
And I don't know whether it was by design, or it was a defect 
in the Affordable Care Act. The facilitation of consolidation 
in the health care market place, doctors purchasing medical 
practices really has taken off.
    I get it, why a doctor would enter that type of--it is just 
too darn much trouble. I am having to, you know, spend all my 
energy trying to take care of sick people, and I don't have 
time to deal with the insurance companies and every other 
aspect. The hospital wants to buy my practice at a tidy sum. I 
will sell it to them, and I will just work for them.
    But here is the problem with that. Our contract is always 
with the patient. It is not with the hospital, it is not with 
the government. No man can serve two masters. You are--as a 
physician, my contract must be with the patient. I must always 
keep the patient's best interest at the front of my mind. 
Because if I don't, if I am only worried about what it is going 
to cost the hospital, or how can I make more money for the 
hospital--perhaps there are some additional tests that could be 
ordered. Perhaps the cost of the whole system, upward--it is 
not in the best interest of the patient to have the doctor 
working for anyone but the patient. And that is one of the 
things that I think we have to keep in mind.
    Mr. Johnson. This is a little bit anecdotal, and I know 
that is dangerous in a hearing, to go----
    Mr. Burgess. The plural of anecdote is data.
    Mr. Johnson.----anecdotal, but, I mean, life expectancy in 
the United States has tremendously increased over the last four 
or five decades, you know? I mean, you know, we talk about 
Medicare and Social Security. And when those programs were put 
in place, people were living into their 60s. Now people are 
living into their 80s, 90s, and, I mean, I got people in my 
district that are popping 100.
    There is something working in America's health care system 
that Americans are living longer because of improved health 
outcomes. Why do we want to tear that down?
    Mr. Burgess. I don't have an answer for you, because it 
doesn't seem wise.
    I did hear Mr. McGovern make the statement that life 
expectancy was decreasing. There is no question--and you know 
this--the opioid epidemic has, in fact, had an impact----
    Mr. Johnson. Oh, sure.
    Mr. Burgess.----on life expectancy in this country. But the 
general thesis that you are putting forward is absolutely 
correct. And, you know, we just had that hearing on vaccines in 
our committee. We forget the number of children we used to lose 
to vaccine-preventable injury just--you know, just a few short 
years ago. And those lives are not lost today.
    This--not this Congress, but the United States House of 
Representatives passed a big bill right at the end of 2016, 
right at the end of the Obama Administration. It was signed 
into law by President Obama--I think it was one of his last 
bills--called Cures for the 21st Century. You know we worked on 
that in our committee for several years. And you think about 
the number of big breakthroughs that are just tantalizingly 
close, and Cures was to bring them even closer and deliver them 
to patients so they can begin making an impact in their lives.
    I look at that through a provider's eyes and say, no, this 
generation of doctors that is coming up, they are going to have 
tools at their disposal to alleviate human suffering that no 
generation of doctors has ever known. That is the good news. 
And we, the United States of America, the United States House 
of Representatives, is making that investment and bringing 
those things ever closer. And that is a good thing, and we 
should all celebrate that.
    We are going to have to figure out, on some of the cost 
parameters, as we saw with the breakthrough drug that cured 
Hepatitis C, boy, it nearly bankrupted some state Medicaid 
programs. They weren't expecting that. So we are going to have 
to better communicate those things that are just around the 
corner. But it is going to be--it will be a true golden age of 
medicine.
    Mr. Johnson. All right, thank you.
    Mr. Burgess. I apologize for going long.
    Mr. Johnson. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I 
just--I want to create one little--or correct one little 
comment that you made, and it is related to the Affordable Care 
Act. When you said you were not invited into the room, you may 
not have been specifically.
    But to create the impression that that was a closed process 
is----
    Mr. Burgess. Yes.
    Chairman Yarmuth. There were dozens and dozens of hearings 
on both the House and Senate. There were markups.
    I was on the Ways and Means Committee at the time. We had a 
meeting with all 45 members, Republicans and Democrats. We 
asked Republicans, ``Is there any way we can write a health 
care reform bill that any one of you can support?'' They said 
no. They didn't want to participate in the process. That was 
the reaction we got consistently. Republicans were consistently 
invited into the process, and refused to participate. So----
    Mr. Burgess. Just, if I may, I can't speak for the Ways and 
Means Committee. Yes, the Energy and Commerce Committee did 
have a several-day markup, and Chairman Waxman did entertain a 
number of Republican amendments.
    But, as you will recall how that all played out, it was a 
bill that passed on the Senate floor on Christmas Eve that was 
delivered back to the House. And all the work that the House 
had done the year before going into that, good or bad, was then 
done away with, and we just had to take or leave--it was the 
Senate bill, take it or leave it.
    And I remember Speaker Pelosi's comments when that bill 
came over from the Senate, ``Well, I haven't got 100 votes for 
this damn thing over here,'' and she didn't until they worked 
on people and eventually got it passed, and it was a strict 
party-line vote.
    Chairman Yarmuth. Right. Well, we will have plenty of 
opportunity in the Congress to debate the future of health 
care. We need to move ahead----
    Mr. Roy. Mr. Chairman, I would like to----
    Chairman Yarmuth. Mr. Roy?
    Mr. Roy.----address my colleague from Texas, if I might. 
Thank you.
    I want to--just a couple quick questions for you, Doctor. 
Thank you for dedicating your life to the care of others, and 
to health care, and then--and obviously, serving here. Thank 
you for your time here today.
    I would note I was not in Congress in 2009. I think my 
observation as a spectator, as a federal prosecutor back in 
Texas and just watching public policy from Texas, was that, 
clearly, that was passed on a strict party-line vote, that it 
was put through in a process that was questionable, at best, 
and that Obamacare, which you would think, when it was passed 
and implemented, to pretty much, you know, start the slow 
decline of destroying our health care system, the private 
health care market, would, in fact, have been something to be 
tried to be done on a bipartisan basis, not a partisan basis.
    Am I missing anything in my assessment of how that was 
passed in 2009?
    Mr. Burgess. Well, and fortunately for you, we have a good 
example of health care policy that did proceed on an open, 
bipartisan basis, and that was the Medicare Access and Chip 
Reauthorization Act of 2015. We got rid of the sustainable 
growth rate formula, something I had fought for the--all the 
time that I had been here. And it had--it got 393 votes in the 
House and 92 votes in the Senate, so it had significant broad, 
bipartisan support.
    And the important thing there is--and we know this--when we 
do big--especially health care policy bills, but in other areas 
of policy--we do big stuff like that, it gets over to the 
agency and they start interpreting it, and if it is really big 
and vast sometimes they interpret it in ways that, oh, my gosh, 
where the heck did that come from?
    And we--I have seen this personally, with the Medicare 
Access and Chip Reauthorization Act--you will hear doctors 
complain about MACRA and MIPS back home. And to be sure, it 
requires constant vigilance on the part of the committee. We 
have had four oversight hearings on MACRA, and there has been 
bipartisan input in trying to fix the problems as they have 
arisen.
    So if you do something in a bipartisan fashion, you have 
more equity with which to work, going forward, when the 
inevitable problems of implementation--when those occur.
    Mr. Roy. So--and a couple other quick questions. We have 
talked a lot about the costs, since we are here in the Budget 
Committee, of something like Medicare for all. We are aware 
there are a lot of reports out there--$32 trillion is at least 
one assessment, I have seen $40 trillion.
    Are you aware that, even Senator Sanders, who puts out, you 
know, his full support for Medicare for all, and was one of the 
original proponents of it, that even on his own website he 
would suggest that it costs $1.38 trillion per year over 10 
years?
    In other words, $14 trillion. So even his own promotion of 
it would be another $14 trillion--i.e. more than our annual 
deficit right now. Would you agree, that that is the bottom 
line assessment of the cost? The actual cost is more along the 
lines of $32 or $40 trillion?
    Mr. Burgess. We historically under-estimate the cost of 
these programs.
    Mr. Roy. No way. In Washington, D.C.?
    And then the question--talking about private markets and 
health care, would you agree that the purpose of government is 
to protect the inalienable rights and to protect our liberty, 
that that is the reason our government exists?
    And do--are we aware that, under Medicare for all, that we 
are pretty much going to outlaw private insurance? That is--the 
purpose of it is, essentially, to outlaw it and leave it at 
the--at best, at the margins, as an additive?
    Mr. Burgess. So if the question is is the government too 
big, too small, or just the right size, I think you and I would 
agree that it is too big. And you would do nothing toward 
right-sizing that government if you were to add to it the part 
of the GDP that is composed of health care in this country.
    It will inexorably rise, and rise to a level that I think 
is almost incomprehensible, but it will--you know, we talked 
about banks that were too big to fail.
    Mr. Roy. Right.
    Mr. Burgess. We have got an agency over there that is too 
big to work.
    Mr. Roy. Right.
    Mr. Burgess. How--you know, this should be devolved to the 
states. We should look at ways to help our states put together 
the programs, and let it work on a more local level, rather 
than all over the Hubert Humphrey building, or some place up in 
Bethesda.
    Mr. Roy. And finally, would you agree that--and I have had 
a number of people talk about ``the wild, wild west of health 
care'' prior to Obamacare. Would you agree that in 2008, prior 
to the implementation of Obamacare, that we had an 
overwhelmingly regulated health care market from UMRA, HIPAA 
and EMTALA and, you know, all of the additional regulations 
that have been put in place from Washington, D.C., such that 
you didn't have a functioning market to drive costs down in 
2008, and that that has been made inextricably worse by 
Obamacare?
    And so that anything going towards Medicare for all will 
make it even further--more regulated, and increase costs to the 
taxpayers. That is my last question.
    Thank you, Doctor.
    Mr. Burgess. Throughout my professional and political 
lifetime, health care has been one of the most intensely 
regulated aspects of any type of business in this country.
    Chairman Yarmuth. All right, the gentleman's time has 
expired.
    Anyone else?
    [No response.]
    Chairman Yarmuth. Thank you very much. I now recognize the 
gentleman from Massachusetts, Mr. McGovern, for 5 minutes.

   STATEMENT OF HON. JAMES P. MCGOVERN, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. McGovern. And I want to thank you and Ranking Member 
Womack and other members of this committee for holding today's 
hearing and extending the opportunity for members to testify on 
our legislative priorities, the things that we think are 
important.
    As many of you know, I have spent a great deal of my time 
in Congress focused on the issue of hunger, nutrition, and food 
insecurity. And my priorities this year will come as little 
surprise. Today I am here to advocate for federal nutrition 
programs that help our most vulnerable constituents, and to 
highlight why these programs continue to need our unwavering 
protection and attention, as this committee works to craft a 
budget resolution for fiscal year 2020.
    I will start by highlighting why nutrition programs are 
important. There is a need in this country. We live in the 
richest country in the history of the world, and we have tens 
of millions of people who are food-insecure or hungry. As 
Members of Congress, we should be ashamed of that. We should be 
demanding that that reality change.
    In 2018, a monthly average of 40.3 million people 
participated in the SNAP program. That is one in eight 
Americans. More than 68 percent are families with children, 33 
percent are the elderly or have disabilities, and over 1.3 
million are veterans.
    The average participant is provided with a modest benefit. 
I also serve on the Agriculture Committee and I asked some of 
my colleagues, ``Does anybody know what the average SNAP 
benefit is?'' And I had answers range from ``enough'' to 
``adequate'' to ``generous.'' Well, the reality is the average 
SNAP benefit is $1.40 per person per meal. You can't even buy a 
cup of coffee for that, but that is what it is.
    SNAP stands--you all know SNAP stands for the Supplemental 
Nutrition Assistance Program. In most homes SNAP assistance 
only covers a fraction of a low-income family's food budget, 
and the average time that families participate in SNAP, 
contrary to what some have suggested, is less than a year.
    Since the President assumed power in 2017, nutrition 
programs have been under constant attack. These attacks are 
often framed as ``cost savings,'' and ultimately create more 
problems than they solve.
    On December 20, 2018, the Trump Administration proposed a 
rule that was specifically rejected for inclusion in the Farm 
Bill reauthorization bill that was passed in a bipartisan way 
and was signed into law last year. The rule that the 
Administration proposes threatens the eligibility of SNAP 
participants who are considered able-bodied adults without 
dependents. They call it ABAWDs.
    In an effort to, ironically, ``restore self-sufficiency 
through the dignity of work,'' their rule stigmatizes SNAP 
participants and limits a state's ability to waive 20-hour work 
requirements. Now, ABAWDs are a very complex group. Many of 
them are veterans, returning veterans who are having difficulty 
reintegrating into our communities after serving in war 
situations. Many of them are young adults who have aged out of 
foster care. Some of them are ex-felons who were products of 
mass incarceration.
    And some of them are workers who aren't given 20 hours of 
work per week, or they live in areas where there is no jobs, or 
they can't get access to a job training program. Seventy-five 
percent of SNAP participants do work. They do work. But often 
they work in jobs that are either unstable or they don't pay 
enough to prevent food insecurity. So it is not that the--that 
ABAWDs are jobless by choice. Many are jobless because they 
lack privilege and are trying to get on their feet.
    As if the proposed rule wasn't enough, the Administration 
also appears to be manipulating the Republican majority in the 
Senate to starve the American citizens of Puerto Rico. By 
refusing to take up the supplemental appropriations bill we 
sent them during the shutdown in January, Leader McConnell, 
unfortunately, is failing to provide disaster relief funding 
for Puerto Rico's nutrition assistance program.
    In the coming months, the Trump Administration also 
announced their intention to propose changes to ``categorical 
eligibility.'' Categorical eligibility, or Cat-el, was actually 
a Republican idea. It is criteria used to determine whether a 
family is automatically eligible for SNAP because they already 
qualify for certain other low-income programs. Cat-el is fine 
as it is, because it eliminates redundancy, and it minimizes 
hurdles that low-income families must overcome, just to keep up 
with their basic needs. While the President has yet to announce 
forthcoming changes, given the tone of recent attacks, I don't 
have a lot of optimism.
    So, look, last week in a House Committee on Agriculture 
meeting I asked Secretary Perdue for specific data that was 
used to justify some of these new proposed rules changes. I am 
still looking forward to their response, because in all my 
years I have never seen data provided that would justify some 
of the changes that they are making.
    Let me just say, Mr. Chairman and members of the committee, 
there are those who assert that SNAP and other social safety 
net programs are too expensive to maintain. I would say that 
tolerating hunger and food insecurity in this country is too 
expensive. Kids who go to school hungry don't learn. Workers 
who are food-insecure are less productive in the workplace. 
There is a link between food insecurity and health care costs.
    We just heard this conversation about health care. One of 
the big, driving elements in terms of high cost in health care 
is food insecurity and lack of access to good nutrition. I 
think that we need to figure out a way to not only protect 
these programs, but also have a discussion on how we strengthen 
our social safety nets.
    So that is why this year and for the rest of the 116th 
Congress I request your assistance in both prioritizing funding 
for nutrition assistance programs and using this--and in using 
committee instructions to stop any effort by this 
Administration or anybody else to undo the work that Congress 
has done in the Farm Bill. We bear responsibility in working to 
end hunger, and I will continue to advocate fiercely for our 
most vulnerable communities.
    And I thank you all for your attention and all your 
patience, because you are going to be hearing from a lot of 
members today. Thank you.
    [The prepared statement of James P. McGovern follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    Chairman Yarmuth. I thank the gentleman. Are there any 
questions for the witness?
    Hearing none, thank you once again.
    I now recognize the gentlelady from New Mexico, Ms. 
Haaland.

    STATEMENT OF HON. DEBRA A. HAALAND, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Thank you so much, Chairman, members of the 
committee. I am honored to be here. Thank you for this 
opportunity to share New Mexico's key priorities in the fiscal 
year 2020 federal budget. It is a great honor to speak before 
you today, and I appreciate the hard work your committee does.
    Mr. Chairman, my district encompasses Albuquerque and 
surrounding areas, is blessed with natural beauty, over 300 
days of sunshine every year, and abundant wind resources that 
can drive a vibrant, renewable energy economy that will create 
thousands of jobs in my district and millions nation-wide.
    It would also reduce our greenhouse gas emissions, which is 
extremely important to fight climate change. I urge the 
committee to develop a budget that robustly supports our 
commitment to efficient, renewable energy and investments in 
job training for a green economy.
    I encourage you to include sufficient funding to increase 
the maximum Pell grant, provide universal pre-K, improve 
teacher effectiveness, support low-performing schools, and 
focus on proven methods to improve student achievement.
    As chairwoman of the Subcommittee on National Parks, 
Forests, and Public Lands, I recognize the role of the federal 
government in preserving our natural places for future 
generations. Our budget should fully fund the Land and Water 
Conservation Fund to maximize habitat protection, public 
access, public recreation, and historic preservation.
    My district is home to many rural communities. The budget 
should live up to the promises our nation has made to them. I 
urge you to fully fund the Payment in Lieu of Taxes program and 
the Secure Rural Schools program and allow for a permanent SRS 
solution that will ensure forest counties receive stable, long-
term payments.
    I take my role on the House Armed Services Committee very 
seriously. Last month, military families living in privatized 
housing in Albuquerque shared troubling news. We have a 
military housing crisis on our hands, not just in my district, 
but nationwide, and we need to fix it. That is why I am asking 
for this committee to adequately fund the Family Housing 
Improvement Fund and the Family Housing Operation and 
Maintenance fund to provide quality housing for military 
families.
    My state is home to the national labs and military bases 
that are vital to our national security, including Sandia 
National Labs and Kirtland Air Force Base, which are both in my 
district. I urge you to provide funding to allow work to expand 
Sandia and Kirtland to increase our national security and 
develop innovative technologies to address the many challenges 
we face, including climate change, through the Departments of 
Defense and Energy.
    The Air Force must have the resources it needs to clean up 
the fuel spill at Kirtland, and PFAS contaminates in the areas 
surrounding bases in New Mexico and nationwide. It is a safety 
and public hazard, and it is also wreaking havoc on--
economically, on citizens who live near these spills. It is 
threatening New Mexicans, and similarly-situated Americans 
around the country.
    As one of the first two Native American women elected to 
Congress and co-chair of the Native American Caucus, I urge you 
to address the serious problems Indian tribes face. Today, 
Native Americans face unique challenges and harsh living 
conditions resulting from the many years of federal 
government's forced removal of tribes to reservation lands, and 
their assimilation to urban areas.
    Many residing in Indian country still lack access to clean 
drinking water, to adequate law enforcement, indoor plumbing, 
electricity, structurally sound buildings, and drivable roads. 
The government-to-government relationship between tribal 
nations with the United States is based on commitments made by 
the federal government in exchange for the surrender and 
reduction of their homelands. That is called the federal trust 
responsibility to tribes.
    Congress's failure to adequately fund Indian country is a 
fundamental violation of this trust responsibility and basic 
civil rights of Native Americans. I urge you to develop a 
budget in which equitable and non-discretionary federal funding 
is made available directly to tribes, and increased to remedy 
the many decades of under-funding.
    Last but certainly not least, Mr. Chairman, it is essential 
that we have a successful 2020 census to ensure both proper 
representation in this body, and the proper distribution of 
federal funding and resources to all of our communities.
    A budget is a statement of priorities. It is our priority 
to invest in education, health care, innovation, and 
competitiveness. We must reaffirm those commitments in the 
fiscal year 2020 budget resolution.
    And I thank you for the opportunity to be here today. Thank 
you.
    [The prepared statement of Debra A. Haaland follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentlelady. Are there any 
questions for her?
    Thank you very much.
    Ms. Haaland. Thank you.
    Chairman Yarmuth. Now my privilege to introduce the 
Majority Leader of the House, the gentleman from Maryland, Mr. 
Hoyer.

STATEMENT OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Thank you very much, Mr. Chairman. Is this on? 
Now it is on.
    Thank you very much for allowing me to spend some time with 
you.
    The budget process is broken. That is not good for the 
Congress, it is not good for the American people. I testified 
before Mr. Womack's committee that tried--to try to bring some 
rationality to our process, and effectiveness to our process. 
Unfortunately, we didn't succeed. We got--made some progress, 
but didn't succeed.
    You have heard and will be hearing from a lot of members 
today about priorities affecting individual districts. I, 
however, want to speak to you about what ought to be an 
overarching budget priority for our country. Those of you who 
have heard me testify here in the past know that I have 
consistently advocated for making the difficult decisions 
necessary not only to stop adding to the deficit, but to 
reverse the long-term fiscal trends that threaten our future 
economic prosperity.
    Over the next several weeks this committee has an 
opportunity to start off the budget process for 2020 on the 
right foot and allow appropriators to get to work on funding 
government on time.
    One of the most important functions of the budget 
resolution, of course, is to set the 302(a) allocation, giving 
the Appropriations Committee a top-line budget for all 12 of 
its funding bills. That process has been somewhat hijacked in 
recent years by statutory spending caps for defense and non-
defense appropriations put in place by the Budget Control Act 
in 2011, with frequent delays in the appropriations process as 
we negotiate deals to adjust the caps to meet our national 
needs.
    The bottom line is the majority of the Congress does not 
believe we can live within the sequester caps. That is why we 
have repeatedly made two-year deals to suspend those caps. I 
believe it is critical that we achieve a bipartisan agreement 
on how to replace sequester-level spending caps for both 
defense and non-defense appropriations for the coming fiscal 
year as soon as possible.
    It seems to me that no members more than the Budget 
Committee would want to see that done. Essentially, the 
sequester substitutes itself for the rational judgements of the 
Budget Committee, based upon the information that you receive.
    It would be not only deeply unfortunate, in my view, if we 
missed an opportunity to do the job we were sent here to do, 
but it would increase the chance that our country could be 
headed for another disastrous government shutdown. This 
Committee can and should set the tone for that agreement as you 
consider the budget resolution and the appropriations 302(a).
    If done quickly, a new BCA caps deal can accelerate the 
work of passing appropriation bills on time, conferencing them 
with the Senate--not just four people, all of them, members of 
the Appropriations Committee and the Congress--and the 
President signing them into law. No more shutdowns, missed 
paychecks, or endless continuing resolutions leading to 
economic uncertainty for our markets and financial insecurity 
for our people. CRs are a evidence of failure. Necessary, but 
evidence of failure.
    I was disappointed to learn that the Trump Administration 
intends to send us a budget next week that rejects the existing 
bipartisan consensus enshrined in the last three BCA caps. Mr. 
Ryan and Ms. Murray were part of that process by using the so-
called overseas contingency accounts. That is a fraud. It means 
we will not pay the bill. It means my children and 
grandchildren will pay the bill for the defense and security 
that we want to buy today.
    I cannot use as a backdoor by exempting nearly $200 billion 
in additional defense spending from its BCA cap, while slashing 
non-defense spending well below the sequester level in the name 
of fiscal austerity.
    The debt and deficits that we incur are not labeled defense 
and non-defense. Nor even are they labeled entitlements. They 
are just the deficit that all of our kids are going to have to 
pay. I am not going to be paying it, but our kids are going to 
pay it. That is either gross malpractice, which does a 
disservice to the budget process and virtually assures another 
budget standoff--i.e. failure of the Congress to do its job--at 
the end of the year, or a dangerous short-changing of our 
military's capacity to exchange in long-term national security 
planning.
    Because, of course, the sequester says if we have not 
passed a legislative amendment to sequester 15 days after we 
adjourn this session of the Congress of the United States, we 
will slash defense and non-defense, alike. Irrationally, some 
magic process that we thought was going to contain the deficit. 
In fact, the deficit has exploded, in my view, in large part 
because the tax bill--I know we have differences on that, but 
we will see whether or not that tax bill pays for itself. I am 
convinced it will not.
    This Committee has the best platform, Mr. Chairman and 
Ranking Member Womack, best platform to reject such an 
approach, and work toward consensus on a budget that reflects 
adjusting the BCA caps. And I will tell you I have talked to 
the leaders of the Senate, Republican and Democrat. They all 
believe we ought to come to a budget cap agreement--obviously, 
that involves the Administration--to accommodate our priorities 
on both the defense and non-defense sides of the ledger, while 
maintaining the principle of parity.
    I urge the Committee to serve as an example to the rest of 
us on how to work together, with the precedent of a three--of 
the three prior BCA cap agreements as your guide. Again, 
Chairman Ryan got one of them. As a matter of fact, he was 
involved in two of them.
    To reject--to the kind of budget gimmickry--reject the kind 
of budget gimmickry and fiscal brinksmanship that led to the 
longest shutdown in our nation's history.
    I want to thank the Chairman and the Ranking Member, both 
of whom are good friends of mine, and both sides of the aisle. 
We only have one side of the aisle, plus the Chairman here. It 
is a shame. And I am not talking about anything in my district, 
or anything that--I have got a lot of priorities, just like all 
of you do.
    But gentlemen--there are no ladies here, but to the ladies 
on the staff, we have a responsibility to future generations, 
and we all talk about balancing the budget, and we all talk 
about fiscal responsibility, and none of us practice it. I am 
very upset that the Administration, Mr. Mulvaney--who, by the 
way, as a Member of Congress, not only voted to shut down the 
government, but voted to keep it shut down--we are not 
following fiscally-prudent practices that will benefit future 
generations and the strength of our country.
    If you talk to all the four-stars on the Joint Chiefs of 
Staff, they will say one of the biggest security threats 
confronting our country is the debt and deficit. They are 
worried--operational--personnel costs, of course, but 
operations and deployments and acquisitions are all going to be 
adversely affected if we don't get a handle on this budget 
deficit.
    And the first step is getting to an agreement on the caps, 
so that you can then pass legislation within the context of 
those caps, which will give us a road map onto how we ought to 
fund our government.
    I have gone three minutes and 58 cents--58 minutes over 
time (sic). I apologize for that. But I will--ladies and 
gentlemen, we need to lead on this issue, and we need to urge 
the Administration not to play games with the budget cap, not 
to try to use it as a leverage, but we ought to get to that and 
get about the appropriation process.
    I have reserved all of June to pass every appropriation 
bill by June 30th. I have told all the authorizing committees 
we are going to pass appropriation bills. I am not going to put 
any other bill--if it undermines that objective, so that we can 
give the Senate time to do it, and we can do our work by 
September 30th. There is no reason we can't do it, except for 
political gamesmanship and procrastination.
    Thank you, Mr. Chairman.
    [The prepared statement of Steny H. Hoyer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Yarmuth. I thank the Majority Leader.
    Ranking Member?
    Mr. Womack. I thank the gentleman, distinguished leader, 
for his comments, and a lot of which I agree with. And we may 
disagree on some things--they would be minor, in comparison to 
the bigger issues facing our country right now.
    The leader referenced the Joint Select Committee on Budget 
Process Reform. And, just for the record, you are looking at 
two people who voted for the limited amount of work that the 
Joint Select Committee was able to do. It was a baby step, but 
a step, nonetheless, toward regular order that the gentleman 
references.
    So I do appreciate the fact that he recognizes that budget 
process reform is--has to be a long-term goal of the Congress, 
because we are not being served very well right now by the 
process that we are currently going through.
    I would ask the gentleman this question, and that is to 
give us, from his perspective as the Majority Leader, kind of a 
vision, short-term vision, into the rest of this year, as we 
approach October 1st. Because there are a couple of hurdles in 
this process that could, indeed, force differing viewpoints to 
end up with a shutdown that none of us would like. But we got a 
debt ceiling issue in the month--in this month, but with 
extraordinary measures can be put off indefinitely, or at least 
for a certain amount of time. And then we have the caps deal 
that he has referenced.
    So when we get to the point of marking up appropriations 
bills, to what levels are we going to be looking at in this 
regard?
    Mr. Hoyer. Congressman, there are--first of all, let me 
speak to the debt limit. I think the debt limit is a totally 
phony issue, absolutely dead flat phony. I think it is a 
political issue only.
    The way I explain it to my constituents is you go into 
Macy's and you buy $200 worth of goods. You give them your 
credit card, and you take the goods home. And you are sitting 
around the kitchen table a week later, and you say, ``Boy, we 
are in debt too far.'' And so husband and wife agree we are 
going to have a debt limit, $100.
    Macy's sends you a bill for $200, and you send them a $100 
check back and with a letter to say we have a debt limit of 
$100, and so we can't pay the rest of the money. So Macy's 
says--writes you back and says, ``We are very sorry, but we are 
going to sue you.'' That is what the debt limit is.
    Every time we appropriate money we affect the debt limit. 
Every time we pass a tax bill we affect the debt limit. Every 
time we authorize money to be spent, and it is then spent, we 
affect the debt limit. That is when the debt limit--the debt 
limit decisions are made when you decide to spend money for 
whatever object you do. The debt limit is a phony political 
issue that we get wrapped around the axle. And if we ever 
failed to extend the debt limit to accommodate what America 
owes its own employees, its operational costs, or, frankly, 
foreign creditors--or domestic creditors, for that matter--we 
will have defaulted. And the global economy will be adversely 
affected.
    Every administration says that is not a viable option. I 
have told Secretary Mnuchin that I am for a clean debt limit 
extension, and I will vote for it, and urge my members to vote 
for it.
    And we play political games with one another. If a 
Republican President--we weren't--we would play games with the 
debt limit, and vice versa. If we had a Democratic President, 
Republicans would play the games with. We know now to do that.
    So, from the debt limit standpoint, I think it ought not to 
be used, as I think this Administration is contemplating using 
it, as a leverage. It was used as a leverage in 2013, as well, 
January 2013, and, very frankly, had an impact on the 
sequester, none of which, I think, were good policies.
    On the budget caps, my contention is--and I have been 
working this for two months now, two-and-a-half months--John 
and I talked at the very beginning of the year. Steve, I think 
I talked to you, as well, that we needed to get the budget 
caps.
    Now, we can proceed with the appropriations process in a 
timely fashion by deeming the numbers. But the problem with 
deeming the numbers--let's say we agree with the Senate on the 
deeming numbers. Let's say we pass bills on the deeming 
numbers, and let's say we send them down to the President. The 
President doesn't agree, and he vetoes them, and we can't pass 
them. Then the bills are not going into effect.
    But even if he passes it, even if he signs the bills, 
unless we amend the BCA, the sequester will take effect 15 days 
after we adjourn this session of the Congress of the United 
States, which would be a very substantial cut in both military 
and defense.
    Now, the Administration has suggested we use OCO, $200 
billion worth of OCO. Free money. Doesn't count. It goes on 
somebody's tab, and somebody is going to have to pay it some 
time. I think that is not honest budgeting, not only for this 
generation, but for generations to come. And I think we ought 
to get over that.
    So, I am urging that we adopt the BCA as quickly as we can. 
And if the President doesn't agree, we ought to send 
legislation down there, an agreement between the Senate and the 
House, of what those numbers ought to be. The 302(a) is--
essentially, is what the BCA deals with. But for both domestic 
and non--and--defense and non-defense domestic discretionary 
spending. That would be my hope, that is what I am working 
towards.
    I am not encouraged by the White House's position.
    Chairman Yarmuth. I thank the Majority Leader for his time.
    Oh, I am sorry--oh, oh, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Leader, thank you for being here. And I am pleased to 
say that there are several areas that--where I agree with you. 
One is I agree that debts and the deficit are harmful to future 
generations of America. I also agree that the sequester harms 
our national security and makes it less safe for American 
families.
    I applaud your move to get all the appropriations bills 
done by June the 30th, and I am hopeful that you will be 
successful in that regard. I also agree that we need a caps 
deal.
    So my question is what do you think the caps deal looks 
like? I know that, you know, you said it has to be everybody, 
all Senate and all House. I agree with that. I just wonder what 
your thought is. If you could just kind of----
    Mr. Hoyer. Well, I don't know if it needs to be everybody, 
but it needs to be at least 60 in the Senate and 218 on our 
side, or whatever--many people are voting.
    Mr. Flores. Right.
    Mr. Hoyer. What I think it would look like is something 
like Ryan-Murray. I mean it is going to be a deal as to how 
much we think we can afford and/or spend on defense, and how 
much we need or can afford on domestic. And that is a somewhat 
subjective judgement, obviously. There is no magic figure out 
there, it is as subjective judgement.
    My view would be, obviously, we control the House now. That 
is a difference in the political. So it will not be surprising 
that we will ask for a number closer to defense than we had 
last time. But I don't think there is any magic number.
    And frankly, I think getting to a number that allows for 
inflation on both sides is something that, you know, I would 
be--would urge.
    Obviously, on defense, the Administration talked about 
three numbers, essentially. I think we have $716 this year, 
they have talked about $733, and they have talked about $750. I 
don't know what that--you know, where they really are. But they 
haven't talked about--they have talked about sequester for the 
non-defense, plus a percentage. I don't know that we would 
agree to that.
    But surely we ought to be able to come to agreement, given 
the fact that we control the House, you guys control the 
Senate, and you control the presidency. So there has to be an 
agreement, or we are going to be in a position where we have 
gridlock again, and the possibility of either sequester taking 
place, or shutting down the government, or both.
    Mr. Flores. The--continuing, when you look at the 
components of the federal budget, discretionary--I am going to 
compare it to the last time your party was in power to this 
time.
    The discretionary spending is down, just a little over one 
percent, from where it was in fiscal 2010. The interest on debt 
is up 94 percent. Mandatory spending is up 33.5 percent. And 
revenues are up 62.5 percent. So that would suggest that 
revenues are not necessarily the issue, but then we got this 
big, hairy line on the budget called mandatory spending that 
presents the challenge.
    If we both agree that debt and deficits are bad, what is--
what should we do, in terms of looking at that section of the 
budget that has shown the greatest growth?
    Mr. Hoyer. Hold hands.
    Mr. Flores. And jump?
    Mr. Hoyer. No, if you do not hold hands, neither party will 
do it.
    Mr. Flores. Right.
    Mr. Hoyer. Because they are tough decisions that have to be 
made.
    Mr. Flores. Right.
    Mr. Hoyer. And the other party, whoever the other party is, 
will demagogue the other if you try to take decisions alone.
    The reason Tip O'Neill and Ronald Reagan were able to do 
something which funded Social Security and made it stable for a 
lot of years was because they held hands. They did it together, 
and they said this has got to be done. I think----
    Mr. Flores. Are you all willing to do that in this 
Congress?
    Mr. Hoyer. You know, I don't know the answer to that 
question, honestly. But you asked me what my view was of how 
you do that.
    You will not get a handle on the--meeting the needs both of 
national security and of domestic security without really 
fiscal confrontations unless we agree together, unless Mr. 
Yarmuth and Mr. Womack and the committee get together and say, 
``Look, this is what we ought to do for our country.''
    Mr. Flores. Okay, I----
    Mr. Hoyer. This is what is responsible.
    Mr. Flores. I appreciate the comment. I agree with you, we 
are going to have to hold hands and not demagogue each other as 
we tackle these thorny issues----
    Mr. Hoyer. Right.
    Mr. Flores.----because as we set--in one area I agree is 
that debt and deficits are bad for the future of our American 
families.
    I would note for the record that, in terms of interest in 
this conversation today, that there are three times as many 
Republicans here as Democrats.
    So I yield back.
    Mr. Hoyer. Maybe that is a comment on me, not----
    Chairman Yarmuth. Mr. Roy is recognized.
    And I will remind the members we have 10 witnesses left. 
And if we take this much time with all 10 of them, we will be 
here until well past votes. I just want to remind----
    Mr. Womack. Mr. Chairman, may I?
    Chairman Yarmuth. Yes, sir. Yes, the Ranking Member is 
recognized.
    Mr. Womack. I would like to move that, because of the time, 
and because of the number of witnesses left, I know I would be 
willing to agree to limit the Q&A following any of the 
remaining speakers, to include this particular witness, to a 
couple of minutes, if that would be in order.
    Chairman Yarmuth. I certainly would respect that. Okay, 
without objection, so ordered.
    Mr. Roy?
    Mr. Roy. Thank you, Mr. Chairman.
    Thank you, Mr. Leader, thank you for your time, for joining 
us here today. A couple of quick questions, as a freshman 
coming into this process. I don't bring with it the experience 
or the baggage of having gone through the caps process, or the 
previous year's debates. But I did want to just kind of 
understand some of the facts.
    If I understand correctly, you know, in the last year we 
busted the caps, so to speak, to use that phrase that we use 
around here, by $153 billion, of which about $80-odd billion, 
$85 billion, I think, was defense. And $60-odd billion was non-
defense discretionary and busting the caps. Does that sound 
right to you, in terms of how much we busted the caps last 
year?
    Mr. Hoyer. Yes.
    Mr. Roy. And so I guess my question is----
    Mr. Hoyer. I don't know, you know, precisely, but----
    Mr. Roy. Ball-parking.
    Mr. Hoyer. Ball park.
    Mr. Roy. Yes, sir. If--my question is, when we are talking 
about the sequesters kicking in, right--law this year means 
they will kick in again, as you pointed out. How much will we 
have as a deficit this year, even if we allow the sequesters to 
kick in? Do you know that number?
    Mr. Hoyer. I do not know the specific number. It is over a 
trillion.
    Mr. Roy. Yes. Basically, we will be spending $1 trillion 
more than we take in, even if we allow sequesters to kick in.
    But what I hear from both sides of the aisle--let me just 
be 100 percent clear, non-partisan observation, critique, as a 
freshman coming in--is that I don't see or hear any plan 
whatsoever on what to do about that particular problem.
    In other words, we are talking about--all I am hearing is 
that we need to bust the caps even further in order to have 
non-defense discretionary go up and defense go up. So hawks get 
what they want, in terms of spending increases. Those who want 
to see non-defense discretionary go up, have that go up, just 
as we did last year--with a chart that I have used in the 
Budget Committee before with these big red lines really busting 
the caps, so that the American people set out--to use your 
analogy about how people balance their budgets at home, how 
do--nobody at home says, ``Well, gee, I really want a brand-new 
loaded Suburban, so I am just going to bust my budgetary caps 
this year by 25 percent.'' Like, who does that?
    And I am just trying to figure out what on earth we are 
going to ever do to solve this problem.
    Mr. Hoyer. Well, if you look at the amount of consumer 
debt, you may reflect upon that answer.
    [Laughter.]
    Mr. Roy. Well, I understand that. But they still have to 
pay their interest. They still have to pay their monthly 
payments. And--at least those who are following the law.
    Chairman Yarmuth. The gentleman's time has expired. We are 
going to try to move this along.
    Does anyone else have any questions?
    Thank you. I thank the Majority Leader.
    Mr. Hoyer. Thank you very much.
    Chairman Yarmuth. The order, as I have it, for those who 
are here----
    Mr. Hoyer. By the way, I really like the way you have done 
your room. I told Mr.----
    Chairman Yarmuth. Actually, I give Mr. Womack credit for 
that.
    Mr. Womack. We did it before we handed it over to the 
Democrats.
    [Laughter.]
    Mr. Hoyer. Thank you very much on both counts.
    Chairman Yarmuth. Thank you.
    Let's see, is Mr. Cline here? Okay. So the order that I 
have here is Mr. Cline, Mr. Marshall, Mr. Fitzpatrick, and Ms. 
Slotkin. Oh, Ms. Houlahan is here, and--oh, Mr. McAdams. Mr. 
McAdams has been sitting here, so let me recognize him now.
    Mr. McAdams, you are recognized for 5 minutes.

  STATEMENT OF HON. BEN MCADAMS, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. McAdams. Thank you, Mr. Chair, and thank you Ranking 
Member Womack and members of the Budget Committee. I appreciate 
the opportunity to testify before you today.
    Before I was elected to Congress I was a mayor who had to 
balance a budget every year, in a bipartisan fashion. And I was 
then, as I am now, accountable to taxpayers for every dollar 
spent, and nothing was more important to me than to be a good 
steward of the hard-earned tax dollars that we received.
    I believe that our $22 trillion debt is a bipartisan 
problem. Both parties are responsible for getting us into this 
mess. In 2017 we saw Republicans in the House jam through an 
irresponsible tax cut for the wealthy and the well connected 
that added almost $2 trillion to our national debt total. They 
sold that tax to the public by saying, in part, that it would 
pay for itself. But most economists say that that is a myth. 
That additional $2 trillion simply piled on to the enormous 
economic burden we have created for future generations, rather 
than achieve needed tax reform.
    Both Democrats and Republicans have acted in a way that 
suggests that debt doesn't matter. But I am here to say that I 
believe the debt does matter.
    Unfortunately, the interest on our national debt is now the 
fastest-growing part of the federal budget. Next year we will 
spend more on interest than on all--than all the federal 
funding for our kids. And by the year 2025, six years from now, 
our interest payments will exceed the cost of our defense 
budget. Growing interest payments will crowd out other 
investments that would move our country forward, such as 
education or housing or infrastructure.
    And not only is that fiscally irresponsible, I believe it 
is morally reprehensible to saddle generations yet unborn with 
those bills. And some day those bills will come due.
    As has been said before, but it still holds true today, the 
first rule, when you find yourself in a deep hole, is to stop 
digging. And that is why it was so critical in our first votes 
in the House on the rules package that we kept pay-as-you-go 
requirements. Every Utah family understands that when you 
decide to make a purchase, you must first show how you will pay 
for it. Either you find additional revenue, or you cut back on 
spending elsewhere so that you continue to live within your 
budget.
    When I was mayor I constantly faced tradeoffs. But you set 
your priorities and you make choices. And sometimes those are 
very difficult choices. Again, this is what hard-working Utah 
families in my district do every day when they sit at the 
kitchen table and balance their checkbooks. And Congress must 
do the same.
    As one of the co-chairs of the Blue Dog Task Force on 
Fiscal Responsibility and Government Reform, I will be working 
with my colleagues and my fellow co-chair, Representative Ed 
Case, to pursue smart, strategic policies to rein in the 
federal government's persistent annual deficits and 
unsustainable debt. We will be responsible for crafting 
policies that increase transparency, hold Congress accountable 
to the taxpayers, and ensure that money is wisely spent.
    Another tool in our toolbox, I believe, must be a Balanced 
Budget Amendment, and I hope to introduce legislation on this 
soon. The Blue Dog Coalition has championed this issue in the 
past, and I will work with members to advance the issue again 
in Congress.
    By generally prohibiting the federal government from 
spending more than it receives in a fiscal year, I think we can 
start to turn the Titanic of debt around. Lawmakers in both 
parties must take a hard look at both the revenue and the 
spending side of the ledger, while also protecting the Social 
Security and Medicare benefits that seniors have earned.
    The measure that I plan to introduce will have reasonable 
exceptions for things like times of war or a severe economic 
down turn.
    I also support my fellow Representative Jim Cooper's ``No 
Budget, No Pay'' legislation. Everyone in this country 
understands that if you don't do your job on time, you won't 
get paid. The same rules should apply to Congress. If we don't 
pass a budget and the funding bills by October 1st, Congress 
shouldn't get paid.
    I also support taking a hard look at the return we have 
received from government programs to determine if we are 
getting good outcomes, or just perpetuating spending with 
little or no results. We can do this by building a results-
driven policy agenda and ensuring that scarce federal resources 
are invested in what works. They are invested more wisely using 
tax dollars and improving outcomes for young people, for their 
families, and for their communities.
    During my time as mayor, we launched several evidence-based 
programs to track and measure what outcomes the public received 
in return for spending their precious tax dollars. We evaluated 
programs, and we improved, and we have reallocated dollars as 
appropriate.
    Now, national headlines say that no one in either political 
party is talking about the debt. We must have that 
conversation, and we must work until we find solutions to the 
harm that is caused by the debt. It is clear that our country 
is on a dangerous and unsustainable course. And it is past time 
for both parties to stop digging. The decisions, they won't be 
easy, but our children and our grandchildren are counting on us 
to make this right.
    Thank you for allowing me to testify.
    [The prepared statement of Ben McAdams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. I thank the gentleman for his testimony. 
The Ranking Member is recognized.
    Mr. Womack. All right, Mayor. You have got a $4.5 trillion 
budget. You have got $3.5 trillion worth of revenue. So you 
have got a $1 trillion delta in here. So if your balanced 
budget amendment--and, look, I agree that the only way to 
really ever force the hand of Congress is to enshrine it into 
the Constitution, because that is what we pledge to uphold when 
we take our oath of office--where would you begin, and how 
would you do it?
    Because I think we get universal support, the heads nod yes 
when we talk about a spending problem, or spending more, you 
know. Arkansans, just like Utahans, agree that we ought to be 
able to balance our books like our states do. But we have some 
incredible, incredibly difficult choices to make. So how do you 
do that?
    Mr. McAdams. Well, thank you, Ranking Member. And this is--
you know, coming back to my experience as mayor--and granted, 
it is a different--we had a $1.3 billion budget, which is 
different than a $4 trillion budget, to be sure, but there is 
no program that doesn't have a constituency and people who 
support that program. But I think that is why I support a 
balanced budget amendment, because I think you have got to 
start with the premise of requirement to balance the budget.
    And there are tough choices. There is--it is not a simple 
matter of funding the good programs and not funding the bad 
ones. But we have to make qualitative assessments of what each 
dollar is doing, and what return on investment each dollar is 
giving to the taxpayer.
    So I--my proposal would be to start with a balanced budget 
requirement. Probably with the state we are in right now it is 
not going to--we would have to phase it in over a period of 
time. But if you set that expectation, first and foremost, then 
we have to do the qualitative evaluation on every dollar that 
is spent, and we are going to have to make some really hard 
choice to get there.
    What I found, working as mayor, they are tough decisions. 
And they can become partisan. But we know, at the end of the 
day, we have to balance that budget. And so there is a give and 
a take. And we may see programs that we like--but the return, 
the human return, or the fiscal return on that investment may 
be X, and another investment is 2X. And so we have to make 
tough choices like that.
    We also look at, you know, where we can have public-private 
partnerships, or other partnerships that might help us to 
stretch those dollars further to maximize the bang for the 
buck, so----
    Mr. Womack. As a former mayor--with my time expired now--as 
a former mayor, I look forward to working with you under kind 
of that mayor's mentality----
    Mr. McAdams. Yes.
    Mr. Womack.----to try to get to the right answer.
    Mr. McAdams. Thank you, Mayor.
    Chairman Yarmuth. I thank the Ranking Member and the 
witness.
    Anybody else?
    Thank you. Thank you very much, once again.
    And I now recognize Mr. Cline for 5 minutes.

STATEMENT OF HON. BEN CLINE, A REPRESENTATIVE IN CONGRESS FROM 
                  THE COMMONWEALTH OF VIRGINIA

    Mr. Cline. Thank you, Mr. Chairman. And I have enjoyed 
Congressman McAdams's remarks. My predecessor, Congressman 
Goodlatte, was the sponsor of the Balanced Budget Amendment for 
many years, and I hope to work with him on that, and I think 
that would be--go a long way toward addressing many of the 
issues that we are facing.
    Mr. Chairman, members of the committee, our continued 
failure to control federal spending and address our mounting 
debt truly is the greatest threat to this nation.
    When I ran for office last fall, I promised the citizens of 
Virginia's 6th congressional district that I would reintroduce 
four words to Washington: We can't afford it. These are four 
words that should have been repeated endlessly over the last 22 
years since the last time a federal budget with a surplus was 
signed into law in 1997.
    In Virginia, where I served in the House of Delegates for 
16 years, we are required to balance our budget every year. And 
because we have placed a priority on fiscal responsibility, 
Virginia is frequently listed among the best states in which to 
do business. And all too often, throughout my tenure in the 
House of Delegates, we were required to tell people we can't 
afford it.
    In contrast, the federal government has an outstanding 
public debt of more than $22 trillion. Every year, since 1997, 
Congress has failed to maintain a fiscally responsible budget 
and, instead, has relied too much on raising the debt ceiling.
    Because of this practice, back in 2011 the credit rating of 
the U.S. was reduced from AAA to AA+, and it has remained at 
that level since. Virginia has maintained its AAA bond rating, 
making it one of only a few states to have that honor.
    Not only is the current practice of not passing a balanced 
budget fiscally irresponsible, it poses a threat to our 
national security. And I see Congressman Biggs here, who led 
the effort to highlight that fact, and President Trump has also 
highlighted the need to reduce the national debt through fiscal 
responsibility. In September 2011, former Chairman of the Joint 
Chiefs Mullin warned that the biggest threat to our national 
security is debt. And since that statement our national debt 
has increased by 50 percent.
    As Members of Congress we must understand that the national 
debt is indeed a threat to our national security, that deficits 
are unsustainable, irresponsible, and dangerous. Committing 
Congress to restoring regular order in the appropriations 
process, and addressing the fiscal crisis faced by the United 
States is no longer just an option, it is a necessity. And the 
future of our great republic and future generations depend on 
it.
    Thank you, Mr. Chairman.
    [The prepared statement of Ben Cline follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
    Chairman Yarmuth. I thank the gentleman. Anyone have a 
question for the witness?
    I now recognize Ms. Houlahan from Pennsylvania for 5 
minutes.

    STATEMENT OF HON. CHRISSY HOULAHAN, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Ms. Houlahan. Thank you, gentlemen. And I would like to 
kind of work off of Representative Cline and Representative 
McAdams talking to us about the responsibility we have as 
Members of Congress to be responsible to the people we serve.
    And I am a first-time, first-term representative from 
Pennsylvania, and I, among several--a lot of people in the 
1980s (sic), nearly a quarter of the Congress came to 
Washington to rebuild trust in our government, to rebuild the 
democratic process, and to fix what largely people perceive on 
the outside of this bubble to be a very broken Congress.
    And unfortunately, when I and my classmates entered office, 
we were already in the midst of what would then become the 
largest and longest government shutdown in our country's 
history. And this, frankly, was unacceptable to me and to many 
of my colleagues on both sides of the aisle, and, most 
importantly, to the American people that we were brought here 
to serve.
    I watched as constituents at home went without pay, and 
people were used as pawns in political negotiations. And now 
that the government is open again, we seem to be quickly 
forgetting the pain that we inflicted on the people of our 
communities.
    And so I come here in full appreciation of the work that 
the Budget Committee does to come to bipartisan budget 
resolutions that allow the appropriations process to move 
forward in a timely manner. But I also am coming here to 
hopefully re-elevate the importance of something called the 
shutdown to end all shutdowns bill.
    Each year we must work together to draft an appropriations 
package to fund our government. Debate is to be expected. But 
what we should never tolerate is federal workers and 
contractors being forced to work without pay because we in the 
executive and legislative branches have failed to perform our 
very basic duties as elected officials.
    And this is why I first introduced H.R. 834, the Shutdown 
to End All Shutdowns Act, which was cosponsored by close to two 
dozen of my freshmen classmates. This bill was designed to 
disincentivize shutdowns as a negotiating tool, by transferring 
the financial hardship of the shutdown to the very people who 
caused it: the executive branch and the Members of Congress, 
rather than the people that we serve.
    We really need to move on from the politics of partisan 
gridlock. We really need to move on from continuing resolutions 
and government shutdowns. And we absolutely have to come 
together to pass a spending bill every year that serves our 
constituents and upholds our values. We need to return to 
regular budget order, and not budget by crisis.
    Thank you so much for your attention, and I will definitely 
take any questions you have with the remainder of my time.
    [The prepared statement of Chrissy Houlahan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. Okay, thank you for your testimony.
    Anything?
    Ms. Houlahan. Thank you, gentlemen.
    Chairman Yarmuth. Thank you very much.
    I now recognize Mr. Biggs of Arizona for 5 minutes.

STATEMENT OF HON. ANDY BIGGS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Biggs. Thank you. Thank you, Mr. Chairman and Ranking 
Member Womack. I appreciate the opportunity to testify before 
this committee today.
    A few weeks ago our national debt surpassed $22 trillion. 
That is not news to you. But it is roughly equivalent of 
$68,000 per person in the United States. And since 2017, the 
national debt has grown by nearly--over $2 trillion.
    Democrats and Republicans are both at fault in the current 
fiscal state of our country. We both--all of us are concerned. 
Both sides of the aisle are concerned, as well, and we have 
talked about regular order.
    Both parties need to look at reforming Social Security and 
Medicare to ensure these programs remain sustainable. Social 
Security and Medicare make up the majority of our federal 
budget. And CBO has forecast that Medicare will run out of 
money in 2026, and Social Security in 2034.
    And many of my colleagues and I have promised to cut 
spending and enact substantial budget reforms, but have been 
unable to keep our commitments because it has been tough to 
have a true regular-order process in this Congress.
    In fact, our inefficiency has seemed--and caused the United 
States' credit rating from Standard and Poor's to fall from AAA 
to AA+. And without a targeted effort to balance our budget, 
our credit rating will surely continue to fall.
    President Trump's National Security Strategy highlights the 
need to reduce the national debt through fiscal responsibility, 
and President Trump is not alone in recognizing the national 
debt as a threat to national security.
    A bipartisan group of national security leaders like former 
Chairman of the Joint Chiefs of Staff Michael Mullen, 
Secretaries of Defense James Mattis, Leon Panetta, Director of 
National Intelligence Dan Coats, and others have warned that 
our continued increase in our national debt will eventually 
hinder our ability to sustain our national security.
    To address this issue, I introduced a resolution 
recognizing the national debt as a threat to America's national 
security. And I am happy to report that many of our own 
colleagues--some who serve on this committee--in fact, more 
than 50--have signed onto this resolution. But it will take 
more than just promises and sound bites. We have a lot of work 
to do.
    And I wanted to report on something that happened for me. 
The lights went out as I testified, as it just--this happens to 
me.
    Chairman Yarmuth. We apologize.
    [Laughter.]
    Mr. Biggs. It is all right.
    Chairman Yarmuth. It was not an editorial comment.
    Mr. Biggs. Yes, I appreciate that.
    I served on the Arizona appropriations committee for 14 
years. The last six years I served in the Arizona Legislature I 
effectively wrote the state budget with my colleagues. When I 
took over that duty, we had--we lost--we had lost 34 percent of 
our state revenue in a nine-month period. We were considered to 
be the per capita hardest hit at the end of the 2008--at the 
beginning of the 2008 recession.
    We managed to restore the glide path by creating a glide 
path so we could meet our obligations, provide the services 
that we felt were the most necessary. And the result is that I 
report to you today that Arizona has a $1 billion structural 
surplus, which is, contrary to the multi-billion-dollar 
negative situation we were in just a few short years ago.
    I am convinced we can do this. It will take bipartisan 
sacrifice, bipartisan cooperation. And part of the way we do 
this is to continue to talk about this, elevate it, make it a 
real priority. Quite frankly, I feel like sometimes we spend so 
much time on so many other things that we fail to recognize how 
important what you do in this committee and what we do with our 
spending really is. I think it is the most important thing we 
do in Congress.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Andy Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentleman.
    Questions?
    Thank you very much. I now recognize Mr. Cloud from Texas 
for 5 minutes.

 STATEMENT OF HON. MICHAEL CLOUD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Cloud. Thank you, Chairman, Ranking Member, and 
committee. It is a pleasure to be here today. And I thank you 
for having this time for us to come here and share our 
thoughts.
    I hail from the 27th congressional district of the great 
state of Texas, and the debt and deficit are two major concerns 
for residents in our district. I have come here today to 
address the cost of servicing our debt.
    As you know, the Congressional Budget Office and the Joint 
Committee on Taxation, among other services, provides estimates 
to Congress to show how a given piece of legislation will 
affect spending and revenues over the next five to 10 years. 
This resource has become an integral part of Congress, and it 
has been used to inform members and their staffs of the 
budgetary impacts of legislation.
    The CBO and JCT cost estimates, while useful, do not 
provide a complete view of the cost of legislation. Both the 
CBO and JCT scores, unfortunately, do not include the cost of 
servicing the debt. As Maya MacGuineas of the Committee for a 
Responsible Federal Budget explains, if interest on the debt is 
not counted, the official scores of legislation can be 
deceptively low, especially when offsets would occur years in 
the future.
    American taxpayers and future generations deserve honest 
accounting, not more gimmicks that attempt to paper over our 
huge and unsustainable deficits. The folks back home understand 
this. If they were budgeting for monthly car payments and only 
considered the list price of the car itself, and didn't factor 
in the cost of extra interest payments, they would--might 
discover later that the actual total cost was more than they 
could afford.
    In essence, Congress has been doing this same thing by not 
considering the comprehensive budgetary impacts of spending and 
taxing proposals. This distorts congressional decision-making 
in favor of more spending and debt accumulation than might 
otherwise be the case.
    Take for example a scenario that played out in 2009:
    The American Recovery and Reinvestment Act of 2009 was 
estimated to increase deficits by $787 billion, according to 
the CBO. However, then CBO Director Doug Elmendorf testified to 
then Representative Paul Ryan that, due to interest payments, 
the cost would be higher over the budget window, pushing the 
cost of the bill to over $1 trillion.
    Let me conclude with this. While the CBO occasionally 
provides insights to interest payments through updates to 
Congress, legislatures--legislators are not regularly given 
this information to consider. As a result, Members of Congress 
have an incomplete view of the long-term impact of the votes 
that we are taking.
    Servicing the national debt is becoming a substantial part 
of federal spending. Within a few years, our national spending 
on interest will be more than the entire Department of Defense 
budget. By 2029 the Congressional Budget Office estimates that 
net interest payments will have climbed to $928 billion. This 
will increasingly crowd out other spending priorities.
    And this is a bipartisan concern. In a recent article 
Democratic Representatives Correa, Murphy, O'Halleran, and 
Brindisi wrote, ``Our growing debt poses a threat to the U.S. 
economy and the quality of life of every American, not to 
mention our national security and our ability to respond to 
unexpected challenges.''
    I have introduced a bill, H.R. 638, the Cost Estimates 
Improvement Act, which would, among other things, require the 
CBO and JCT to include debt servicing costs in their estimates. 
I would hope that the fiscal year 2020 budget resolution would 
adopt this bill or similar policies, so that the American 
public has a clearer view of how much congressional spending 
costs.
    Thank you very much.
    [The prepared statement of Michael Cloud follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Chairman Yarmuth. I thank the gentleman.
    Ranking Member?
    Mr. Womack. Thank you.
    To Andy, Mike, and to Jodey, who will speak here in a 
minute, thank you guys for coming in here. We have 26 members 
out of 435--a little less than 435, we got a couple of 
vacancies--but we have 26 members representing far less than 10 
percent, maybe 5 percent of our caucus, or our whole Congress 
that is in here testifying on matters of budget. But everyone 
would say that when they go home people are talking about 
deficits and debt, which is kind of the purview of this 
committee.
    So, Mike, because you were testifying, let me just throw 
this question out. Let's say we have a $1 trillion deficit this 
year, and we are going to try to address that $1 trillion 
deficit. Let's say we were going to try to take it to zero. 
About 70 percent of federal spending is on the mandatory side, 
and we know what those programs are. And about 30 percent is on 
the discretionary side, give or take a percentage or two.
    So is it as simple as saying we are going to look at 
reforms that would give us savings on a 70/30 kind of basis, 
mandatory versus discretionary? How would you do that?
    Mr. Cloud. Are you asking me to rewrite the federal budget?
    [Laughter.]
    Mr. Womack. Not in 58 seconds.
    Mr. Cloud. Yes. I have been here for eight months, still 
working on how to fix everything.
    I do know that Congress is broken. I think this proposal 
that I am proposing is one step to us being able to have the 
information to make those kind of decisions.
    Mr. Womack. Is your early understanding of the budget 
process reform at least flawed, in your position, or in your 
opinion, if not broken?
    Mr. Cloud. I am sorry?
    Mr. Womack. Is the current budget process, budgets and 
appropriations that we do today based on the 1974 budget 
construct, is it flawed?
    Mr. Cloud. What I know is that every year we spend more 
money than we take in. Americans, the people who elected me and 
us, recognize that we--this is unsustainable. It is a huge 
national security threat, and we have got to find a way to get 
back to sensible budgeting.
    Mr. Womack. I know when I go back to my district and my 
town hall meetings, and people talk about deficits and debt, we 
are in general agreement that we have a problem. The real 
challenge for us is when we start discussing what the solutions 
are. And then you start stepping on toes and people start 
defending their programs.
    Mr. Cloud. Ultimately, it is going to have to come down to 
us caring more about the country than we do being here.
    Mr. Womack. I agree.
    Chairman Yarmuth. I thank the gentleman.
    Now, maybe last, but not least, the distinguished former 
member of the Budget Committee, Mr. Arrington from Texas.
    Mr. Arrington. You never said ``distinguished'' when I was 
here, Mr. Chairman.
    [Laughter.]
    Mr. Arrington. But I----
    Mr. Womack. Now, can I add also a distinguished member of 
the Joint Select Committee on Budget Process Reform?

   STATEMENT OF HON. JODEY C. ARRINGTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Arrington. Thank you, Ranking Member, and I am honored 
to have served on the committee with you, very proud of the 
work we did.
    You are a gentleman, Mr. Chairman, and I just appreciate 
the way you do business.
    Mr.----former Chairman, but my Chairman during my tenure 
here, very proud of the product that we put out, a balanced 
budget over 10 years, reduction in spending, which I think is 
completely out of control, and the problem 70 percent of which 
is on the mandatory side, which has been discussed, and that is 
90 percent of the growth over the next 10 years. And we reduced 
it, under your leadership, to a greater extent than has been 
done in 20 years. Thank you. I am proud to have been a part of 
that.
    It is mind-boggling for the American people to do the math 
on $22 trillion and, in 10 years, $33 trillion. In the next 10 
years we will go from a--close to a trillion deficit spending, 
annual spending, to over $10 trillion, 100 percent in 10 years 
of our entire value of the United States economy, and so on and 
so forth. And it is just--it is scary, and it is--will have a 
disastrous effect on our children and grandchildren.
    Now, that is what I loved about the Budget Committee. That 
is why I am here, because I think the greatest threat to the 
future of this country is this debt path, and the prospects of 
a sovereign debt crisis. And nobody knows when it is going to 
happen. But when the dominos start to fall, you won't be able 
to get it back, we won't be able to get it back, and we will 
send this economy so far backwards that our kids will be in a 
very, very abysmal economic condition, and they will not be 
able to pursue their dreams and have their families and pursue 
their careers like we have in this great country.
    With that backdrop, I am here to talk about the Medicare 
for all proposal. I don't know how, with $22 trillion and all 
the things I just talked about, we can introduce another big-
government takeover, essentially, of the health care economy. 
Now, there is no price tag on what the Democrats have 
introduced in the way of this Medicare-for-All proposal. But 
the conservative, most conservative estimates, have it at 
upwards of $30 trillion.
    Now, to keep up with that, not to mention the trajectory we 
were on under current policies and associated spending which I 
just described, drop the weight of $30 trillion on top of that, 
I don't know how you can sustain it. I don't know how you 
don't--how you prevent the triggering of that sovereign debt 
crisis.
    The American people are not going to tolerate doubling 
their taxes. We just gave them relief, and eight out of 10 
Americans are living paycheck to paycheck, 60 percent have 
$1,000 or less in their checking account. And this would be a 
disaster.
    So the problems are cost, but they are also quality of 
care, in my opinion. Now, it wasn't too long ago that we had 
the introduction of the Affordable Care Act. And that was 
ironically titled, because we have seen nothing but costs 
skyrocketing. We had premiums go from $2,800 to $6,000 across 
the country. We had the reduction of choice--essentially, one 
provider per county in over half the counties in the country. 
It did not work out well.
    And now we want to double down on that and move to a 
universal care, single-payer system like the VHA, and that 
hasn't worked out for veterans. I served on the VA Committee, 
and I got to tell you, what a disservice to our veterans. I 
mean they are trapped. Some of them got sick, sicker. Some of 
them died waiting in line for care. That was the universal 
health system that I was familiar with in the context of that 
committee.
    Included in this proposal is the Democrats' proposal and 
idea on how to fix this ever-increasing cost of drugs. We all 
know that is a problem. But the solution, Mr. Chairman, with 
all due respect, is not price controls. It is not compulsory 
licensing, where the government literally comes in and takes 
somebody's intellectual property because they don't like the 
way they price it, and then they distribute it the way they 
want to because government knows best.
    I can't even fathom of a situation like that. But that is 
what is included. And it will destroy any notion of consumers 
choosing the very best drug therapies for the best quality of 
life and lifesaving drugs.
    I know my time is limited here, but that, to me, the--the 
answers are, for me, real simple. And I don't mean to be too 
dogmatic about it, but we need people competing for our 
business, as consumers, as patients. We need healthy markets, 
robust markets. We need transparent markets, where consumers 
can be informed and empowered and make rational decisions. And 
if we do that, I think everybody will win, and we will get 
quality care at an affordable price for the whole health care 
market, not just on the provision of care between doctors and 
patients, but drugs and every other component.
    Mr. Arrington. Thanks for your--for allowing me to testify. 
I know I went over my time, but some things don't change, Mr. 
Chairman.
    [Laughter.]
    Mr. Arrington. I yield back.
    [The prepared statement of Jodey C. Arrington follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
   
    
    Chairman Yarmuth. I thank the gentleman. The Ranking Member 
is recognized.
    Mr. Womack. I have no question, I just wanted to again 
thank Jodey for serving on the Joint Select Committee on Budget 
Process Reform. It was an extremely important effort that we--
even though we did not get through the tape, we got very close.
    Mr. Arrington. Yes, we did.
    Mr. Womack. But there are three guys sitting right here.
    Mr. Arrington. That is right.
    Mr. Womack. The Chairman and the two of us that were in the 
yes column on at least taking, if not a baby step, a little 
more important step forward----
    Mr. Arrington. Yes.
    Mr. Womack.----in trying to fix our broken process.
    Mr. Arrington. Thank you. Very meaningful, and thank you, 
Mr. Chairman, for your leadership, as well.
    Chairman Yarmuth. Absolutely. Thank you. Just one comment 
about prescription drugs, because you said ``with all due 
respect.'' I have no proposals in, so I didn't take offense.
    But there are a number of initiatives being discussed now 
in various committees on how to deal with prescription drug 
prices, and I hope we can come to a bipartisan agreement on 
something that will work and solve the problem.
    Mr. Arrington. I do, too, Mr. Chairman. As a new member of 
Ways and Means, I do hold out great hope that we can have a 
bipartisan solution there. I just don't want--I think there is 
some ground in the middle there to work on.
    Chairman Yarmuth. I thank you, and I want to thank all the 
witnesses. Thanks for hanging around. And while we had 26 times 
as many witnesses, I think the hearing was worth even a greater 
factor than 26 times.
    Mr. Womack. I enjoyed the hearing.
    Chairman Yarmuth. It was very good. So I thank the Ranking 
Member and all the members, and--because the testimony here 
will be important in--as we consider funding and policy 
priorities for the 2020 budget resolution.
    Unless anyone has any further business, without objection 
this hearing is adjourned.
    [Whereupon, at 1:02 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
</pre></body></html>
